<html>
<title> - ALLEGATIONS OF SELECTIVE PROSECUTION: THE EROSION OF PUBLIC CONFIDENCE IN OUR FEDERAL JUSTICE SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




ALLEGATIONS OF SELECTIVE PROSECUTION: THE EROSION OF PUBLIC CONFIDENCE IN 
                       OUR FEDERAL JUSTICE SYSTEM
=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                AND THE

           SUBCOMMITTEE ON COMMERCIAL AND ADMINISTRATIVE LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2007

                               __________

                           Serial No. 110-61

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                ========

                     U.S. GOVERNMENT PRINTING OFFICE

38-507 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

























                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel

                                 ______

           Subcommittee on Commercial and Administrative Law

                LINDA T. SANCHEZ, California, Chairwoman

JOHN CONYERS, Jr., Michigan          CHRIS CANNON, Utah
HANK JOHNSON, Georgia                JIM JORDAN, Ohio
ZOE LOFGREN, California              RIC KELLER, Florida
WILLIAM D. DELAHUNT, Massachusetts   TOM FEENEY, Florida
MELVIN L. WATT, North Carolina       TRENT FRANKS, Arizona
STEVE COHEN, Tennessee

                     Michone Johnson, Chief Counsel

                    Daniel Flores, Minority Counsel






























                            C O N T E N T S

                              ----------                              

                            OCTOBER 23, 2007

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3
The Honorable Linda T. Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Commercial and Administrative Law..............................   194
The Honorable Chris Cannon, a Representative in Congress from the 
  State of Utah, and Ranking Member, Subcommittee on Commercial 
  and Administrative Law.........................................   200
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on Commercial and 
  Administrative Law.............................................   207

                               WITNESSES

The Honorable Richard Thornburgh, Kirkpatrick and Lockhart 
  Preston Gates Ellis, LLP, Washington, DC
  Oral Testimony.................................................   209
  Prepared Statement.............................................   213
Mr. Donald C. Shields, Professor, University of Missouri-St. 
  Louis, Kansas City, MO
  Oral Testimony.................................................   224
  Prepared Statement.............................................   226
G. Douglas Jones, Esquire, Whatley, Drake and Kallas, Birmingham, 
  AL
  Oral Testimony.................................................   271
  Prepared Statement.............................................   274

                                APPENDIX

Material Submitted for the Hearing Record........................   388

































 
ALLEGATIONS OF SELECTIVE PROSECUTION: THE EROSION OF PUBLIC CONFIDENCE 
                     IN OUR FEDERAL JUSTICE SYSTEM

                              ----------                              


                       TUESDAY, OCTOBER 23, 2007

          House of Representatives,                
      Subcommittee on Crime, Terrorism,            
                      and Homeland Security        
                     Subcommittee on Commercial    
                            and Administrative Law,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 10:10 a.m., 
in Room 2141, Rayburn House Office Building, the Honorable 
Robert C. ``Bobby'' Scott (Chairman of the Subcommittee on 
Crime, Terrorism, and Homeland Security) presiding.
    Present from the Subcommittee on Crime, Terrorism, and 
Homeland Security: Representatives Scott, Waters, Delahunt, 
Johnson, Jackson Lee, Davis, Baldwin, Sutton, Forbes, Gohmert, 
Coble, Chabot, and Lungren.
    Present from the Subcommittee on Commercial and 
Administrative Law: Representatives Conyers, Sanchez, Johnson, 
Lofgren, Delahunt, Watt, Cohen, Cannon, Jordan, and Keller.
    Staff present: Bobby Vassar, Chief Counsel, Subcommittee on 
Crime, Terrorism, and Homeland Security; Michone Johnson, Chief 
Counsel, Subcommittee on Commercial and Administrative Law; 
Eric Tamarkin, Majority Counsel; Mario Dispenza, Majority 
Counsel; and Veronica Eligan, Professional Staff Member.
    Mr. Scott. The hearing will come to order.
    Good morning. I am pleased to open this hearing on 
Allegations of Selective Prosecution: The Erosion of Public 
Confidence in our Federal Judicial System.
    For some months now, we have been looking at the issue of 
whether some United States attorneys were fired because of 
their unwillingness to bring politically based prosecutions. Of 
course, if there is evidence that some U.S. attorneys were 
fired for their failure to bring politically based 
prosecutions, that leaves the question of whether any of those 
not fired kept their jobs because they were willing to bring 
such prosecutions.
    Today's hearing focuses on this aspect of the question as 
the continuing investigation of the issue of whether there is 
inappropriate politicization within the Department of Justice 
and looking at instances in which prosecutions appear to have 
been politically motivated.
    United States Supreme Court Justice Robert Jackson once 
said, ``While the prosecutor at his best is one of the most 
beneficent forces in our society, when he acts from malice or 
other base motives, he is one of the worst. Therefore, he 
should have as nearly as possible a detached and impartial view 
of all groups in his community.''
    Unfortunately, however, evidence has come to light that the 
United States Department of Justice may be falling far short of 
holding a detached and impartial view. Allegations have risen 
that U.S. attorneys have aggressively investigated political 
opponents for activity that was only technically criminal or 
not even criminal at all, then timed the announcement of 
indictments to affect elections.
    U.S. attorneys have also been accused of selectively 
prosecuting only Democrats for activities in which Republicans 
have engaged in similar activities. In fact, the latest 
statistics in one study that we will hear today showed that of 
375 investigations of political candidates and officeholders 
initiated under the Bush administration's Department of 
Justice, 80 percent have been against Democrats, and this 
disparity in the department's focus calls its objectivity into 
question.
    We have researched the trend and uncovered a number of 
disturbing incidents that raise questions as to the 
department's impartiality, and since we announced plans to 
conduct this hearing, a steady flow of cases has come to our 
attention that deserve attention, but time prohibits us from 
detailing them fully.
    We will hear about a number of specific cases today, but I 
want to focus briefly on just one case that highlights both the 
doubtfulness and the selectiveness of prosecutorial activity.
    Paul Minor was a major Democratic contributor in 
Mississippi and a trial lawyer who had won two major lawsuits 
against companies that may have been involved with the U.S. 
attorney. He was indicted for guaranteeing loans and providing 
houses for Mississippi Supreme Court Justice Oliver Diaz. The 
justice had recently won an election to the Mississippi high 
court over a close friend of the U.S. attorney's and was 
indicted on corruption charges for his dealings with Paul 
Minor.
    Like a number of other cases we will hear today, the 
indictments were announced 90 days before a major election, in 
this case the 2003 gubernatorial election, and that 
announcement was widely seen as an attempt to paint the 
Democratic Party as corrupt. The dubiousness of the allegations 
comes from the fact that although there were, in fact, 
financial dealings between Paul Minor and the justice, there 
was no evidence of influencing the justice or even an attempt 
to influence him.
    The prosecution offered no evidence that the justice 
presided over any cases that Paul Minor brought before the 
court. Moreover, investigators never even interviewed the 
justice's fellow jurists to determine whether he had improperly 
influenced any cases involving Paul Minor or anyone associated 
with him.
    And, finally, the activity for which Paul Minor was 
indicted had been commonplace in Mississippi, and prosecutions 
for such impropriety had never been brought in the past. 
Ultimately, Paul Minor and the justice were acquitted of any 
charges of activity between them. However, the acquittal was 
long after the Mississippi gubernatorial race, which was won by 
the Republican candidate.
    The allegation of selectivity in the case stems from the 
fact that the U.S. attorney apparently ignored activity of a 
major Republican contributor and brother-in-law to a Republican 
U.S. senator. The Republican contributor also made loans to the 
justice and was Paul Minor's co-owner of the very building that 
the justice used as his residence for which Paul Minor was 
indicted. Yet the Republican contributor was not even 
investigated, let alone indicted.
    In fact, when the investigating FBI agent brought the 
evidence about this very Republican contributor to the 
attention of the U.S. attorney, the agent was transferred to an 
antiterrorism unit in Guantanamo Bay, Cuba, and was replaced by 
an agent who had contributed to the Republican Governor Haley 
Barbour's campaign.
    Mr. Minor had entered a lengthy and articulate motion to 
dismiss the charges against him, which the trial court did not 
grant. However, without objection, I would like to enter Mr. 
Minor's Motion to Dismiss on the record so the details of the 
allegation here can be fully recognized.
    This is just one of a growing list of cases in which U.S. 
attorneys have allegedly attacked political rivals, while 
allowing similar activity by its allies to go unchallenged. It 
is incumbent upon us as part of our congressional oversight 
responsibilities to determine to what extent these determined 
allegations are true, and that is why we are holding this 
hearing.
    I would like to now recognize my friend and Virginia 
colleague, the distinguished Ranking Member of the 
Subcommittee, the Honorable Randy Forbes who represents 
Virginia's Fourth Congressional District.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Chairman, today is another sad and embarrassing day for 
the Judiciary Committee. Rather than focusing on important 
issues to the American people, such as the rise in violent 
crime, the threat of terrorism, violence on college campuses, 
the increase in international gangs, the invasion of Chinese 
espionage agents into our country, the majority is wasting our 
time to try and create smoke where there is no fire and deal 
once again with politics, politics and politics.
    It is sad to see how the historical traditions surrounding 
the Judiciary Committee have been jettisoned in favor of 
partisanship, all to the detriment of the American people. Is 
it any wonder why Congress's approval ratings are so low right 
now?
    So we bring in our usual cadre of witnesses, and we have 
hearings on things that we never did before: ongoing trials. We 
bring people in here, and then we limit the cross-examination 
to these fine men to 5 minutes apiece. Wouldn't that be 
wonderful if you could be in a trial setting, some of the very 
trials that the Chairman mentioned earlier, but you could say 
to the attorneys who were doing the cross-examination, ``But 
you are only going to have 5 minutes to ask these people any 
questions,'' and, also, it would be good because prosecutors 
have barred most of these cases from coming in here and putting 
on their side of the story.
    This hearing is not a review of the abuse of prosecutorial 
discretion. We have raised that for months now. If it were, we 
would be examining the Duke Lacrosse players where the 
defendants were fully exonerated and the prosecutor disbarred.
    Some of these cases, we have situations where you had 
individuals brought before a court, the judge tried the case, 
the jury found them guilty, they were sentenced, they have an 
appeals process to go through, and yet we want to look at that. 
But in other cases, we have situations, as in the Nifong case 
and the Duke players, where they have been completely 
exonerated.
    Have we listened to that? Have we looked at that? No. Have 
we heard anything about the political prosecutorial discretion 
that was used in the Texas case against Tom DeLay? No. Have we 
looked at the situation in Louisiana where this Subcommittee 
went down, refused to take testimony on it, but they actually 
came to another hearing we had, and the concern there was that 
individuals, the police and members of the chamber of commerce 
were saying that the prosecutors were not prosecuting 
corruption, that, in fact, only 12 percent of the people 
arrested or less than 12 percent ever went to jail.
    But we do not want to listen to those cases. Instead, we 
are sitting here while the majority embraces baseless claims 
made by criminal defendants who have no other forum in which to 
allege prosecutorial misconduct. This is not a surprise. These 
ridiculous claims have turned the Judiciary Committee into 
judge and jury of criminal prosecutions. I cannot think of a 
more inappropriate abuse of this great institution.
    In its zeal to make mountains out of molehills, the 
majority is questioning the conviction of former Alabama 
Governor Don Siegelman, who was found guilty beyond a 
reasonable doubt of bribery, mail fraud and conspiracy by a 
jury and sentenced to 7 years in prison. Governor Siegelman was 
found to be a corrupt politician who sold his public office for 
money. He was prosecuted by a career prosecutor. He was found 
guilty by a jury of his peers and sentenced by a Federal judge 
with a record of fairness.
    I ask unanimous consent, Mr. Chairman, that statements by 
U.S. Attorney Leura Garrett Canary and Acting U.S. Attorney 
Louis V. Franklin be submitted for the record.
    Mr. Scott. Without objection.
    [The statements of Ms. Canary and Mr. Franklin follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Forbes. Like any defendant who has been found guilty 
and sentenced to jail, Siegelman is now alleging that he was 
prosecuted for political reasons. His credibility is no 
different than any other criminal with a motive to say anything 
to get out of prison.
    What is unusual today is that the majority is conducting an 
investigation based on these claims. The majority's misguided 
reliance on these claims is proven by their decision not to 
call Jill Simpson as a witness in this hearing. She is the sole 
witness who made the initial allegation about a single 
telephone call 5 years after the fact, 11 months after 
Siegelman's conviction and 1 month before his sentencing. Two 
individuals who she alleged were on the telephone have 
submitted affidavits contradicting her claim.
    Mr. Chairman, I ask unanimous consent that these statements 
be included in the record.
    Mr. Scott. Without objection, so ordered.
    [The statements of Mr. Riley and Mr. Lembke follow:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Forbes. I also ask unanimous consent that the statement 
of Governor Riley's election attorney be submitted for the 
record.
    Mr. Scott. Without objection, so ordered.
    [The prepared statement of Mr. Butts follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Forbes. The Judiciary Committee staff questioned 
Simpson for hours about her allegation. Her credibility was 
shredded beyond repair. Her statements during the interview 
were misleading and unbelievable. In my view, the Committee 
should consider referring her to the Justice Department for 
further examination. That is why the majority did not want her 
here today.
    Simpson swore out in affidavit in May 2007 about an alleged 
telephone conversation in November 2002, a conversation that 
she did not memorialize, nor tell anyone about until years 
later. In her affidavit, she alleged that Siegelman conceded 
the election because of a controversy surrounding a KKK rally. 
When interviewed, Simpson changed her story. She claimed for 
the first time that Siegelman had also conceded the election 
after receiving assurances that he would not be prosecuted. 
Continuing her fabrication, Simpson alleged for the first time 
in her interview two additional conversations regarding 
Siegelman's concession and prosecution.
    Finally, in her effort to tie Karl Rove to the Siegelman 
prosecution, Simpson identified the name Karl in an e-mail 
discussing a FEMA contract as Karl Rove. We have since learned 
that the Karl referred to on the e-mail is Atlanta attorney 
Karl Dix, contrary to Simpson's assertion. That is why the 
majority did not want her here today.
    Because the majority has not called Simpson today, I ask 
unanimous consent to submit the transcript of her September 14, 
2007, interview with the Judiciary Committee staff.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    Mr. Forbes. Now, in an attempt to keep this so-called 
investigation afloat, the majority has turned its attention to 
other outrageous claims. Today, our Committee has turned into a 
political circus when we should be addressing issues of serious 
public concern. The American people hopefully will see this 
event for what it is, just one more in a string of dead-end 
political investigations, but at least the majority will 
succeed in one major thing. They will break yet another record. 
They will move their approval rating even lower than the 11 
percent they currently have earned.
    And I yield back the balance of my time.
    Mr. Scott. Thank you.
    And I would now like to recognize the Chairwoman of the 
Subcommittee on Commercial and Administrative Law, the 
Honorable Linda Sanchez who represents California's 39th 
Congressional District.
    Ms. Sanchez. Thank you, Mr. Chairman.
    During the course of the U.S. attorney investigation, we 
have attempted to learn why nine talented U.S. attorneys were 
fired in the middle of Bush's second term. While the answer to 
that question remains elusive, today, we will try to answer a 
different question, but a no less troubling question: Did the 
U.S. attorneys who were not fired, the so-called loyal Bushies, 
base Federal prosecutions on improper partisan purposes rather 
than on facts and law?
    This hearing, I would remind my colleagues, is about the 
single most important issue in the criminal justice system: 
whether the power of the prosecutor, the power to take away 
someone's freedom, has been abused. The public must learn the 
full extent to which the Justice Department has been 
transformed into a political arm of the Bush administration.
    During former Attorney General Alberto Gonzales's tenure, 
nonpolitical Justice Department lawyers, such as assistant U.S. 
attorneys and immigration judges, were hired for jobs based on 
party affiliation and campaign contributions rather than 
because of their qualifications. Top members of Mr. Gonzales's 
staff attended pre-election White House political briefings led 
by Karl Rove and his aides. Mr. Gonzales authorized almost 900 
people in the White House to have communications about ongoing 
civil and criminal investigations with at least 42 department 
officials.
    Some Federal indictments were timed so as to have a maximum 
impact on upcoming elections, and evidence suggests that nine 
U.S. attorneys were fired in part because they refused to make 
prosecutorial decisions for politically motivated reasons. This 
hearing will explore whether political considerations 
improperly influenced prosecutorial judgment in several cases 
across the county.
    In July, Chairman Conyers, Mr. Davis, Ms. Baldwin and I 
requested documents from the Justice Department on three 
alleged selective prosecutions that we believe require 
additional investigation. Former Alabama Governor Don 
Siegelman, Wisconsin State official Georgia Thompson, and Cyril 
Wecht, a prominent former Democratic coroner in Pittsburgh. 
Three months have passed since our original request, and we 
still do not have an adequate response from the department.
    While our document requests focus on three cases of alleged 
selective prosecution, several other cases have come to my 
attention since we started the U.S. attorney investigation. For 
example, the prosecutions of former Los Angeles City Councilman 
Martin Ludlow, Georgia State Senator Charles Walker, 
Pennsylvania State Senator Vince Fumo, Michigan Attorney 
General candidate Geoffrey N. Fieger, Puerto Rico Governor 
Anibal Acevedo Vila, and Democratic contributor Peter Palivos 
may warrant additional scrutiny and Committee action.
    At this time, I would ask unanimous consent to enter 
letters regarding the cases of Mr. Fieger, Mr. Palivos, Mr. 
Walker and Mr. Acevedo Vila into the record.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Sanchez. Anecdotal concerns regarding alleged 
politically based select prosecutions have been reinforced by 
an academic study by Professor Donald Shields, a witness at 
today's hearings, and John Cragan. The study found Federal 
prosecutors during the Bush administration have indicted 
Democratic officeholders far more frequently than their 
Republican counterparts. I look forward to hearing Professor 
Shields' testimony today and to gaining a better understanding 
as to why Democrats are disproportionately targeted for Federal 
prosecution.
    I was encouraged that when Attorney General Nominee Michael 
Mukasey was asked about the role of politics in law enforcement 
decisions, he responded, ``Partisan politics plays no part in 
either the bringing of charges or the timing of charges.'' 
However, as we learn from the divergence of Mr. Gonzales's 
initial public statement from his actions at the department, I 
will reserve judgment on Mr. Mukasey until we are certain that 
his actions reflect the interests of the American people rather 
than simply the President.
    I hope that, if confirmed, Mr. Mukasey will act quickly to 
remove the cloud of politicization over the Justice Department 
and help steer clear the department back to its core mission: 
to guarantee fair and impartial administration of justice for 
all Americans. Ensuring that U.S. attorneys base prosecutions 
on legitimate crimes instead of political considerations would 
be a good start. The American people need to be assured that 
political calculations do not determine whether an individual 
is arrested or prosecuted.
    And with what, I yield back the balance of my time.
    Mr. Scott. Thank you, Ms. Sanchez.
    And I would like to now recognize the Ranking Member of the 
Subcommittee on Commercial and Administrative Law, the 
Honorable Christopher Cannon, who represents Utah's Third 
Congressional District.
    Mr. Cannon. Thank you, Mr. Chair.
    I would like to begin by asking unanimous consent to submit 
for the record correspondence between Commercial and 
Administrative Law and the Justice Department. There are three 
separate items here, and I do not think we need to identify 
them separately.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Cannon. First of all, I would like to thank our 
witnesses for being here today. This is always difficult, and 
we appreciate your coming.
    To my colleagues on the Commercial and Administrative Law 
Subcommittee and the Crime, Terrorism and Homeland Security 
Subcommittee, let me say that I, at least in one way, I am glad 
that we are here today. That is we do not often have a chance 
to sit together. So it is pleasant to have a joint hearing.
    As a preliminary matter, I would like to associate myself 
with the comments of the distinguished Ranking Member of the 
Crime Subcommittee, in particular his discussion about politics 
behind this kind of a hearing. And what I have heard so far 
from the other side appear to be these kinds of same wild 
allegations that we have looked at continuously, which have 
been in many particular cases dispelled and which remain a vast 
effort of time by this Committee, by the full Committee, by the 
Subcommittee on Commercial and Administrative Law in its 
oversight process of the U.S. attorney's office.
    Let me just agree with my fellow Ranking Member that we 
ought to be thinking about what the effect of these hearings is 
on the stature of this Committee and our Subcommittees, and I 
might just add by way of a final note here, a precatory note, 
that we actually know why the U.S. attorneys were fired. The 
majority refuses to actually look at the facts behind it. But 
none of the allegations that have been so flagrantly thrown 
around have been shown to have any substance at all in the 
firing of the U.S. attorneys, and the damage done to the 
Justice Department, which I agree has been done, is in no small 
part a result of these unsubstantiated allegations, which can 
be made in the most flagrant fashion from the dais and yet are 
subject to cross-examination and dissipation when we have 
witnesses and testimony.
    I would just mark the sixth anniversary of September 11, 
2001, and since that tragic day, we have witnessed bombings in 
Bali, the attack on the Madrid trains, the attack in London at 
the London subway, attempts on Heathrow and Glasgow airports. 
We witnessed the foiling of terror plots, for example, on 
inbound planes from France and Germany and elsewhere, and it is 
thanks to the heroic and incessant efforts of the Justice 
Department entities that we oversee as well as other agencies 
and our military, that it is the list of attacks we have foiled 
and terrorists we have destroyed that has grown longer, not the 
attacks on our soil.
    But, today, we are talking about our efforts and tools in 
the war on terror and the war on crime before the Crime 
Subcommittee, and we are not talking about issues of the 
prosperity and stability of our economy in the context of 
commercial and administrative law, as we would in our 
Subcommittee. Instead, we are once again talking about U.S. 
attorneys and selective prosecutions for political reasons.
    The Commercial and Administrative Law Subcommittee has 
spent an inordinate amount of time on this whole project over 
the course of this year, and what has come from the 
investigation is not much more than a sullied Department of 
Justice and a partisan whirlwind for the majority to push on 
the press in the battle to destabilize that agency. This witch 
hunt has never really found anything that justified the 
Committee's extraordinary expenditure of time, but it kept 
going.
    As one excursion after another has led nowhere, the 
majority has simply shifted the targets, changed the 
allegations and cast its wrecking ball anew, and so we find 
ourselves today perhaps at last at the logical conclusion of 
this irresponsible distortion of the oversight process.
    We are summoned by the majority to hold a hearing of these 
two important Subcommittees to what end? To turn the partisan 
lens on two pending criminal manners. One is on appeal. One is 
has not even yet come to trial. The department, of course, 
cannot appear to defend itself, the cases are pending, and our 
witnesses, Mr. Thornburgh and Mr. Jones, know that. The Members 
of these two Subcommittees know that. As a result, we are hard 
pressed to come to the truth.
    I contend we should not be here at all, and our premature 
inquiry promises nothing other than to undermine the criminal 
justice system and perhaps even produce a miscarriage of 
justice in these two cases, for every word that those who would 
attack the department for these two prosecutions uttered can be 
broadcast--in fact, we have cameras here today that are 
broadcasting--reported in print or reported on the Web in the 
districts in which the trials will occur. This hearing will 
risk tainting the jury pools in those districts. This is an 
unfortunate use of Committee time and resources, and I do not 
intend to prolong it further by these comments.
    I hope at last when we get to the dead-end of all this, we 
can move on and help the Justice Department reclaim its 
appropriate role in society.
    And so with that, Mr. Chairman, I yield back.
    Mr. Scott. Thank you, Mr. Cannon.
    We have a vote pending, but we would like to complete the 
statements. So I will call on the Chairman of the full 
Judiciary Committee, the Honorable John Conyers, who represents 
Michigan's 14th Congressional District.
    Mr. Conyers. Thank you, Chairman.
    I want to welcome the witnesses personally, and I suppose I 
could best use my time by presenting and defending the 
tremendously important record of the Judiciary Committee. I am 
not going to do that because I have been weaving, as the 
longest-serving Member and maybe the oldest, a thread through 
this that runs something like this.
    First of all, this is about the Department of Justice, and 
it is about the assistant U.S. attorneys. And we have a real 
surplus of them here. I mean, this Committee is very expertly 
organized around, first of all, our staff. Mike Volkov, Rob 
Reid, Mark Dubester have all served with distinction in the 
Department of Justice. In the full Committee among the Members, 
we have Artur Davis; we have Mr. Schiff, an assistant U.S. 
attorney from California; we have Zoe Lofgren, a district 
attorney; and we also have Bill Delahunt, a district attorney 
from Massachusetts. So that is the level of research and 
organizing that has been going on.
    Now going along with that thread that encompasses the 
experience in this room, we have three attorney generals, one 
is Dan Lungren. Although he is a state attorney general, he is 
the only one we have, and we are proud of that. What I remember 
best about Dan Lungren when he was the attorney general of the 
largest state in the union is that he said that character is 
doing what is right when no one is looking, and I think that is 
marked the way he has approached our activity across the years.
    The second person I would bring to your attention is the 
Attorney General in the 1940's, Robert Jackson, who did a lot 
of other things beside be Attorney General, but, you know, when 
he was addressing the Attorney Generals back in the 1940's, he 
made some observations that our Chairman, Bobby Scott, 
referenced, and I want to just remind you how important the job 
is.
    So he talked about how much power U.S. attorneys have. He 
was addressing a conference of U.S. attorneys, and he said that 
they have more power than almost anybody else in government 
and, if it is misused, it has horrible ramifications, and it is 
in that sense that he is quoted liberally throughout this 
hearing and our preparation for it.
    And then the third Attorney General is the one that sits 
before us today. You see, I was around when Mr. Thornburgh was 
the Attorney General, and he came in under some very difficult 
circumstances. There were some big problems which he had to 
address, and he did it in a fashion that reminds me of why he 
is here today. This is not an accident. He is still pursuing 
the ability as when he was an attorney to make the Department 
of Justice and those that serve in it, the U.S. attorneys and 
everybody else, as accountable and as independent and as 
impartial as is humanly possible, and it is that that guides us 
in this hearing.
    What makes me proud is that most of the Members of this 
Committee can avoid the notion of dipping into partisanship. It 
is very tempting to do in a legislative arena, but we do not do 
that. We are mostly trying to improve the justice system. Our 
hearings here follow the U.S. attorneys' firing, I mean, 
because one of the problems of the politicization of the 
Department of Justice was the abuse of prosecutorial authority, 
and that is what brings us here.
    So, ladies and gentlemen, there is a very logical and 
reasonable line of approach here. We want to build the 
Department of Justice up. We want it to gain the confidence 
that it has enjoyed in the past, and our best way to do it is 
to shine light on the problem areas so they will not happen 
ever again.
    I am happy that we have done that, and these hearings are 
unique. The Members are absolutely correct this has never been 
done before, and I am proud of the fact that it is being done 
on my watch because we think that by examining the problems, we 
are going to be able to come together and move forward, and so 
I commend the multiplicity of Chairmen and Ranking Members that 
are gathered here this morning, and I am so happy to see the 
witnesses, and I thank the gentleman.
    Mr. Scott. Thank you.
    We have just a few moments left on the vote. We will recess 
the Committee hearing. It will be approximately 10 minutes. We 
will be right back.
    [Recess.]
    Mr. Scott. The hearing will come to order.
    We have a distinguished panel of experts from whom we will 
hear testimony today.
    Our first witness is the Honorable Richard Thornburgh of 
the law firm of Kirkpatrick & Lockhart Preston Gates Ellis. Mr. 
Thornburgh serves as an active advisor and counselor to the 
firm's government affairs clients with respect to matters 
concerning federal, state and local governments. He served as 
governor of Pennsylvania, United States attorney for the 
Western District of Pennsylvania, and was the Attorney General 
for the United States under President Reagan and under 
President George Herbert Walker Bush. He has a bachelor's 
degree from Yale and an LLB from the University of Pittsburgh 
Law School.
    The next witness will be Donald Shields, professor emeritus 
at the University of Missouri at St. Louis. He has conducted 
extensive research and authored a document entitled An 
Empirical Examination of the Political Profiling of Elected 
Officials: A Report on Selective Investigations and-or 
Indictments by DOJ's U. S. Attorneys under Attorneys General 
Ashcroft and Gonzales. He has a bachelor's degree and a 
master's degree from the University of Missouri and a Ph.D. 
from the University of Minnesota.
    Our final witness will be Mr. Douglas Jones from the law 
firm of Whatley, Drake and Kallas. He served as U.S. attorney 
for the Northern District of Alabama from 1997 to 2001, and 
since entering private practice, he has been appointed as a 
special attorney general for the State of Alabama. He holds a 
bachelor's degree from the University of Alabama, a juris 
doctorate from Cumberland Law School at Stanford University.
    Mr. Thornburgh?
    Mr. Thornburgh. Chairman Scott----
    Mr. Scott. Excuse me.
    As you will note the lights before you, we are asking our 
witnesses to do the best they can to confine their testimony to 
5 minutes. The light will go from green to yellow to red, which 
will indicate that the time is up.
    I am sorry.
    Mr. Thornburgh?

TESTIMONY OF THE HONORABLE RICHARD THORNBURGH, KIRKPATRICK AND 
       LOCKHART PRESTON GATES ELLIS, LLP, WASHINGTON, DC

    Mr. Thornburgh. Thank you.
    Chairman Scott, Chairman Conyers, Chairwoman Sanchez, 
Ranking Member Forbes and other Members of the Committee and 
Subcommittees, thank you for the opportunity to speak to you 
today about the significant dangers and serious harm that can 
be caused by the politicizing of Federal criminal 
investigations and prosecutions by the U.S. Justice Department.
    First and foremost, let me affirm my own belief that 
politics has no place in the decision-making process of whether 
or not to charge citizens of the United States with any crime--
federal or otherwise. These citizens must have confidence that 
the Department of Justice is conducting itself in a fair and 
impartial manner without actual political influence or the 
appearance of political influence. Unfortunately, that may no 
longer be the case.
    Let me begin by stating that I come before you as an 
advocate representing Dr. Cyril Wecht, the former elected 
coroner of Allegheny County, Pennsylvania, who is currently 
under indictment in the Western District of Pennsylvania and in 
which proceedings my firm represents him.
    Although the indictment contains 84 counts, it is not the 
type of case normally constituting a Federal corruption case 
brought against a local official. There is no allegation that 
Dr. Wecht ever solicited or received a bribe or kickback. There 
is no allegation that Dr. Wecht traded on a conflict of 
interest in conducting the affairs of his elected office. None 
of the traditional indicia of public corruption are presented 
in this case.
    Instead, the prosecution of Dr. Wecht seeks to use the 
unprecedented theories which seek to convert a hodgepodge of 
alleged violations of home rule charters, county codes and 
state ethic provisions into Federal felonies. Many of these 
alleged underlying violations do not even carry state-mandated 
penalties, yet are now utilized as a vehicle for Federal felony 
prosecutions which brand the accused as a corrupt public 
servant.
    A detailed summary of the shortcomings in these charges is 
set forth in my written statement, especially at pages four and 
five, which I ask be made part of the record.
    Suffice it to say, most of the charging accounts allege 
what I would call nickel-and-dime transgressions which are 
sought to be converted into Federal felony charges. Some of 
these counts involve, for example, the use of office fax 
machines for personal business, such as the transmission of Dr. 
Wecht's curriculum vitae and fee schedule to a local public 
defender seeking his assistance and an executed contract for a 
teaching engagement, postal charges for mailing histological 
slides to attorneys in black lung cases who had consulted Dr. 
Wecht and expense billing irregularities in invoices mailed to 
Dr. Wecht's private clients, a number of felony counts derived 
from alleged improper billing for use of a county car while 
traveling to outlying counties to assist local prosecutors and 
coroners.
    Astonishingly, the government's own evidence indicates that 
they knew prior to indictment that an audit of the billings of 
Dr. Wecht of the counties in question showed them to be 99.99 
percent accurate, a record that was nonetheless turned into 37 
separate felony counts covering a total of $1,700, and the list 
goes on.
    What has come to pass is the realization of the often-
expressed fear that the generality and ambiguity of the mail 
fraud statutes could be used to expand Federal jurisdiction so 
far into matters of state government that it could be used, as 
one judge put it, to regulate theft of pencils from an office 
supply cabinet. The Congress might fairly be asked: Is that 
what you intended?
    A similar expansion of Title 18 USC 666(a)(1)(A) charges 
that Dr. Wecht, in each year from 2001 to 2005, stole property 
valued at $5,000 or more, charges not based on a classic theft 
required by law, but on Dr. Wecht's use of county personnel, 
equipment, resources and, yes, space of the coroner's office to 
assist in his private business. We thus found ourselves asking, 
``Why would the U .S. attorney's office for the Western 
District of Pennsylvania attempt to make such a stretch of 
Federal law?"
    With that background, we came to learn, in part from your 
Committee's investigation, as well as from various news 
accounts, that the Department of Justice, in its evaluation of 
its prosecutors, in certain cases, fired U.S. attorneys not for 
performance-based reasons, but for political ones. We came to 
learn that those United States attorneys, who, among other 
things, aggressively pursued Democrats, as opposed to those who 
did not, remained in place or were promoted. In fact, we 
learned from the study conducted by Messrs. Shields and Cragan 
that this Administration is seven times more likely to 
prosecute Democrats than Republicans.
    Possessed of that information, the prosecution of Dr. Cyril 
Wecht takes on a different and troubling light. Dr. Wecht is a 
prominent and highly visible Democrat in the predominantly 
Democratic region of the Western District of Pennsylvania. He 
is known nationally and internationally as one of the world's 
leading forensic pathologists. He often speaks and is retained 
to conduct autopsies in some of the country's highest profile 
cases.
    In addition to Dr. Wecht's renown in the area of forensic 
pathology, he has always been a contentious, outspoken, highly 
critical and highly visible Democratic figure in Western 
Pennsylvania. In other words, he would qualify as an ideal 
target for a Republican U .S. attorney trying to curry favor 
with a department which demonstrated that if you play by its 
rules, you will advance. Ms. Buchanan must have observed this 
phenomenon firsthand during her service as the director of the 
executive office of U.S. Attorneys.
    Dr. Wecht's case, although high profile, was not the only 
apparent political prosecution in Western Pennsylvania. In 
addition to Dr. Wecht, U.S. Attorney Buchanan conducted highly 
visible grand jury investigations of the former Democratic 
mayor of Pittsburgh Tom Murphy, and Peter DeFazio, the former 
Democratic sheriff of Allegheny County in which Pittsburgh is 
situated. She also prosecuted some lesser-known Democratic 
Party members in the sheriff's office.
    It should also be noted that of these three high-profile, 
very public, Democratic prosecutions, one resulted in a 
misdemeanor macing plea, one resulted in no plea and an 
alternative resolution, and Dr. Wecht's case remains pending. 
All three Democrats were front-page stories during the run-up 
to the 2006 elections
    During this same period, not one Republican officeholder 
was investigated and-or prosecuted by Ms. Buchanan's office--
not one. Although a whistleblower in Republican Congressman Tim 
Murphy's office accused the congressman of using paid staff 
members in his election campaign, no investigation was 
conducted that we are aware of. Despite a local outcry that 
former Republican Senator Rick Santorum was defrauding a local 
community by claiming residency when he actually resided in 
Virginia for purposes of having the school district pay for his 
children's cyberschooling, we are aware of no investigation 
being conducted.
    I cannot and do not opine on the merits of either case, but 
the fact that no investigation was undertaken stands out when 
Democrats in the Western District of Pennsylvania have been 
investigated and indicted in such a highly visible manner.
    This stands in stark----
    Mr. Forbes. Mr. Chairman, point of order.
    Mr. Scott. The gentleman----
    Mr. Thornburgh, could you summarize quickly the rest of 
your testimony?
    Mr. Thornburgh. I am about through, Mr. Chairman, and will 
do my best.
    We have set forth in our written statement to which I 
refer, once more, concerns we have about the conduct of the 
case agent, FBI agent in this case, and I will refer you to 
that.
    One might argue that Dr. Wecht is entitled to a day in 
court, and he will have that day. But the public's perception 
of apparent politics at the Department of Justice will not 
easily be changed or remedied, no matter the outcome of his 
trial. Sally Kalson, a veteran columnist for the Pittsburgh 
Post-Gazette, wrote in her column of July 22, 2007, ``An 
ambitious and enthusiastic Bush partisan like U.S. Attorney 
Mary Beth Buchanan might well consider Dr. Wecht a plum target, 
good for many brownie points at the White House.'' She further 
wrote, ``The jury has yet to convene on Dr. Wecht, but the 
verdict on the Bush administration is loud and clear: 100 
percent political.''
    This is the unfortunate manner in which this Department of 
Justice is viewed in the Western District of Pennsylvania.
    We should not allow any citizen of the United States to 
proceed to trial knowing that his prosecution may have been 
undertaken for political reasons as opposed to being done to 
serve the interests of justice. Sadly, that appears to have 
been so in the case against Dr. Wecht.
    And I thank you for the extended opportunity to appear 
before you today.
    [The prepared statement of Mr. Thornburgh follows:]
         Prepared Statement of the Honorable Richard Thornburgh

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Mr. Thornburgh.
    Professor Shields?

            TESTIMONY OF DONALD SHIELDS, PROFESSOR, 
       UNIVERSITY OF MISSOURI-ST. LOUIS, KANSAS CITY, MO

    Mr. Shields. Mr. Chairman, thank you for this opportunity.
    First, you may be wondering how a communication professor 
comes before Congress with information about political abuses 
of the Justice Department, and I want to tell you that that is 
a valid question.
    At the University of Minnesota where I received my Ph.D., 
Dr. Ernest Bormann developed a communication theory called 
symbolic convergence. Communication, including political 
communication, consists of dramatized messages that, when 
shared by other people, can turn into a rhetorical vision that 
catches up large groups of people into a similar symbolic 
reality.
    Now symbolic reality may have nothing to do with actual 
reality. To cite a famous example, Barry Goldwater in 1964 was 
not actually a dangerous warmonger.
    For three decades or more, I have studied and applied 
symbolic convergence theory to political messaging on a 
national level. With the collapse of Communism, a real question 
arose as to what would replace anti-Communism as the dominant 
rhetorical theme among American conservatives. Then when John 
Ashcroft became Attorney General, he announced a major DOJ 
initiative against public corruption. The study I report to you 
began as a means of tracking participation in this new 
neoconservative anti-corruption rhetorical vision.
    To do the tracking, I compiled a list of the publicly 
reported Federal investigations and indictments of elected 
officials. I went beyond the national media to the local media, 
and that proved the key that unlocked Pandora's box. By 
accident, I made the discovery that the Justice Department, 
acting below the radar of the national media, was investigating 
and indicting local Democratic officials at a rate much higher, 
and local Republican officials at a rate much lower, than the 
percentage of each in the population of elected officials, and 
the DOJ continues to do so throughout 2007.
    Nationally, the party affiliation of elected officials is 
roughly 50 percent Democrat, 41 percent Republican, and 9 
percent Independent. These national percentages are closely 
reflected in my control group study of the investigation and 
arrests of 251 elected officials and candidates by nonfederal 
law enforcement at the state and local level. These 
investigation rates mirror the national percentages of 50 
percent Democrat, 41 percent Republican, and 9 percent 
Independent-Other.
    When I began my study of the U.S. attorneys, these were the 
results I anticipated, that is no significant difference 
between the observed percentages and the actual percentages.
    To the contrary, however, when it comes to investigation 
and indictment of local officials by the DOJ, the numbers are 
staggeringly disproportionate: 80 percent Democrats, 14 percent 
Republicans, 6 percent Independent. That is 5.6 Democrats 
investigated for each Republican, 5.6 to 1, when the ratio 
should be 1.2 to 1, and that is out of 820 investigations now, 
Mr. Chairman, not the 375 you referred to.
    These numbers speak clearly that Federal investigations and 
prosecutions of local officials are highly disproportionate, so 
much so that the possibility of such a difference occurring by 
chance exceeds the .0001 level. That is less than one chance in 
10,000.
    So there is political bias--I call it political profiling--
in such selective investigation and prosecution rates. The 
question that could not be answered until now concerns whether 
the bias has been a bias of individual prosecutors or a policy-
driven bias. Both biases translate into the selective 
investigation and prosecution, however.
    And the numbers do not lie. They represent real people with 
real faces, people like Puerto Rico's Governor Anibal Vila; 
Alabama's former Governor Don Siegelman; Allegheny County, 
Pennsylvania's former coroner Cyril Wecht; Michigan's former 
attorney general candidate Jeffrey Fieger; Michigan's Carl 
Marlinga, a prosecutor and congressional candidate; or 
Mississippi Supreme Court Justice Oliver Diaz, Jr.
    Each of these investigations and indictments were suspect. 
The anecdotal stories and facts behind these cases need to be 
told. They and others like them show both the tenacity and the 
zeal with which the DOJ has selectively investigated and 
selectively prosecuted Democrats, elected officials and 
candidates.
    Other recent revelations concerning the firing of a number 
of U.S. attorneys for not prosecuting Democrats or for 
prosecuting Republicans would seem to indicate that the 
political profiling is very much a policy-driven bias coming 
directly from the Office of the Attorney General and perhaps 
even the White House.
    Regardless of the origin of political profiling and 
regardless of the party being targeted, Congress, I think, has 
the obligation to protect against this abuse. Because the 
powers of Federal law enforcement are so great and the 
political abuse of those powers so unspeakably dangerous, 
Congress must act. My written statement provides several 
suggestions for Congress to consider.
    [The prepared statement of Mr. Shields follows:]
                Prepared Statement of Donald C. Shields

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Professor.
    Attorney Jones?

  TESTIMONY OF G. DOUGLAS JONES, ESQUIRE, WHATLEY, DRAKE AND 
                     KALLAS, BIRMINGHAM, AL

    Mr. Jones. Thank you, Mr. Chairman.
    It is a privilege to be back. I testified before Chairman 
Scott's Committee earlier this summer on the Till bill which I 
still hope will pass both Houses so that we can further 
investigate and prosecute the unsolved crimes of the Civil 
Rights era.
    For today, we are here on a much more disturbing topic 
that, I believe, has significantly damaged the credibility of 
the Department of Justice, and that is the role of partisan 
politics in recent criminal investigations. I want to echo what 
my colleague at the other end of the table, former Republican 
Attorney General Dick Thornburgh, said. Partisan politics plays 
no role in either the investigation, the prosecution or the 
timing of cases, and, unfortunately, that does not appear to be 
the case with the current Administration.
    Mr. Chairman, I have submitted a lengthier written 
testimony that I know will be made part of the record. I would 
like to just spend a few moments to sum up the timeline of the 
Governor Siegelman investigation that goes back to 1999 at a 
time when I was still a United States attorney.
    Governor Siegelman, who had been a force in Alabama 
politics, probably the most dominant force in state politics as 
a Democrat since he first took office in 1978, was elected 
governor in 1998 and assumed office in January 1999, and it 
seemed that no sooner had he taken office that certain 
investigators and lawyers and the attorney general's office of 
the State of Alabama targeted him for investigation.
    Now, ultimately, those charges brought against a Siegelman 
supporter in 2001 did not include Governor Siegelman. In fact, 
he was not named as a co-conspirator, and his name was rarely 
mentioned even in the trial.
    But it was in 2001 and 2002 that a separate investigation 
also started. It was being prosecuted jointly with the U.S. 
attorney's office out of Montgomery. The allegations involved 
corruption among one of Governor Siegelman's Cabinet members, 
Nick Bailey, and a supporter named Lanny Young.
    Clearly, those two individuals had committed crimes. It was 
bribery that Nick Bailey testified to that Governor Siegelman 
had no knowledge about, but very quickly the investigation 
turned the crosshairs on to Governor Siegelman.
    I did not represent Governor Siegelman at the time. I did 
not begin to represent him until 2003, following the death of 
his counsel, David Johnson, but one of the first things that we 
did in 2003 was to visit with the U.S. attorney's office and 
the Alabama attorney general to discuss the case, to tell them 
that we did not believe that politics should be involved in 
this case, but we were concerned about timing and that this 
case needed to move forward. Governor Siegelman had lost the 
election in 2002 and now was very obviously going to run again 
in 2006.
    We were assured that it would not, and I believed that. I 
believed it then, and I believe it today, that at that point 
politics may not have played a role. There were allegations 
that needed to be looked at and, as a prosecutor, I know that 
you have to look at serious allegations no matter who it is.
    But in 2004, all of a sudden, a case that had originated in 
1999 and resulted in a conviction of Dr. Bobo and had been 
reversed came back and, for the first time, Governor Siegelman 
is included in an indictment out of the clear blue sky. It came 
as a complete shock to us that Don Siegelman was included in 
May of 2004 in that indictment as a co-conspirator with Dr. 
Bobo.
    I detail this more in my statement, my written statement, 
Mr. Chairman.
    The case is ultimately dismissed. I was recused in that 
case, but continued to work on the case out of Montgomery.
    In the summer of 2004, while the case in Birmingham was 
pending, we met with U.S. attorneys in Montgomery. We were told 
at that time that they had written off most all of the charges 
that had been looked at for 2 years or more against Governor 
Siegelman, that they had narrowed their focus to three charges, 
including one that involved Mr. Scrushy. They wanted us to 
extend the statute of limitations because they had just not 
quite got the evidence they needed, which we did, we gladly 
did, because we were convinced that there was no crime and that 
no amount of time would result in finding evidence to support a 
crime. This was in July of 2004.
    We did not extend the statute of limitations again, 
although we were asked to do that. Instead, I continued to 
call. We were promised in the summer of 2004 that an answer 
would be given to us within the month, that they would make a 
decision, that the case needed to move. It came and went. The 
month came and went. I kept calling.
    What is interesting is that in October of 2004, the case in 
Birmingham was dismissed. Governor Siegelman's case was thrown 
out on a motion of the government after an adverse ruling by 
Judge Clemens. A month later, in November of 2004, I again had 
discussions with the assistant U.S. attorney in Montgomery. At 
that time, we were told very specifically that they had had a 
meeting in Washington and that Washington had told them to go 
back and review the case top to bottom.
    What resulted in 2005 was not, Mr. Chairman, simply a 
review of the case. It was a wholesale renewed investigation, 
casting wider nets, subpoenaing more records, allegations that 
were off the table were back on, new allegations that came 
forward that ultimately resulted in charges. All of this was 
absolutely stunning and a complete reversal of what we had been 
told only a few months before.
    I ultimately did not represent Governor Siegelman at trial 
because of a trial conflict that I had in Birmingham, but there 
is no question in my mind the Department of Justice in 
Washington were integrally involved, despite the statements 
made by the acting U.S. attorney in Montgomery. The case was 
working out of Washington. They were an integral part of the 
case. I think the evidence clearly demonstrates that.
    Mr. Chairman, finally, as a wrap-up, let me just say that I 
understand that here in Washington and within the beltway, this 
hearing would appear to be driven by politics, but I can assure 
you, as is attested to by the fact that you have both a 
Republican and a Democrat on this panel, that across the 
country, people who have worked in the Department of Justice 
are concerned, and they see a disturbing trend and a trend that 
involves partisan politics that should never be the case.
    Resources have to be used appropriately and, in this case, 
Mr. Chairman, when partisan politics are involved, it will 
undermine the entire credibility of the system, taint any jury 
verdict that could come out and erode the confidence of the 
public. It is as I said in my statement.
    Dr. King once said that injustice anywhere is a threat to 
justice everywhere, and that, I think, is happening across the 
country today, Mr. Chairman.
    Thank you.
    [The prepared statement of Mr. Jones follows:]
                 Prepared Statement of G. Douglas Jones

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    And I thank all of our witnesses for their testimonies. As 
has been suggested, the full written statements in their 
entirety will be entered into the record.
    I would like to enter into the record a petition in support 
of urging the United States Congress to investigate the 
circumstances surrounding the investigation, prosecution, 
sentencing and detention of Don Siegelman, the former governor 
of Alabama, that is signed by 44 former state attorneys general 
urging the Congress to take that action.
    Without objection, that will be placed in the record.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Scott. Mr. Thornburgh, we cut your testimony off. Was 
there more that you wanted to say. I think you were about to 
talk about the FBI agent.
    Mr. Thornburgh. If I could just take a minute to summarize 
my testimony, it is set forth at length in my written 
statement, but one troubling aspect of this investigation and 
prosecution and I think further evidence that it was motivated 
by something other than a search for justice relates to the 
conduct of FBI Agent Bradley Orsini, the lead agent assigned to 
Dr. Wecht's case, as well as the case against the former mayor, 
and an agent with an unseemly past.
    Agent Orsini, while in Newark, New Jersey, was investigated 
for years by the FBI's Office of Professional Responsibility 
and found to have falsified official records and FBI Form 302s. 
He was reprimanded twice for falsification of evidence spanning 
years, demoted and suspended without pay for 30 days and placed 
on probation for a year before transferring to Pittsburgh in 
September 2004.
    There are currently motions pending regarding Orsini's 
actions in connection with three highly publicized warrants he 
obtained in this case, an admitted violation of Department of 
Justice policy. Following disclosure of his past reprimands for 
serial falsification of evidence, at the mandate of the Third 
Circuit Court of Appeals, prosecutors told three different 
Federal courts that they do not wish to sponsor Orsini as a 
witness and went so far as to attempt to prevent us from even 
bringing up his role at trial. This, we suggest, is further 
evidence of irregularities in the conduct of the investigation 
and prosecution of this case.
    One final troubling incident, Mr. Chairman, at the news 
conference announcing the indictment of Dr. Wecht, the United 
States attorney touted the 84-count indictment against Dr. 
Wecht, but then added that he had in her own words literally 
provided unclaimed cadavers to a local Catholic university in 
exchange for lab space, an allegation we will prove to be 
totally false and unfounded at trial and which was never even 
discussed in the pre-indictment meetings we had with Ms. 
Buchanan and her staff.
    Predictably, Dr. Wecht, the Democrat scientist and 
educator, was forthwith labeled a body snatcher and a media 
feeding frenzy ensued. The U.S. attorney thus succeeded in the 
department's apparent mission of casting Democrats in a 
negative light during the election year.
    This, it seems to me, as part of the cumulative record 
here, indicates a failure and breakdown in the supervision of 
the conduct of this investigation and prosecution, and we bring 
it to the Committee's attention for that purpose.
    Mr. Scott. Thank you.
    When you were Attorney General under two different 
Presidents, could you tell us about the number of people in the 
Department of Justice that could communicate with numbers of 
people in the White House and what implications that has in 
terms of limiting the politicization of the Justice Department?
    Mr. Thornburgh. Primary vehicle for communication between 
the White House and the Department of Justice was 
communications between myself and the White House counsel who 
was then C. Boyden Gray.
    I made a rather strict rule about the department speaking 
with one voice and, unless otherwise exempted in a particular 
case, that voice to the Administration, to the news media and, 
indeed, to the Congress was to be the Attorney General. Now, 
obviously, for practical reasons, that was not always the case, 
but any conduct with the White House in particular would be 
subject to review by our office.
    Mr. Scott. And what implications did that have on 
politicization of charging decisions?
    Mr. Thornburgh. It was designed to have a prophylactic 
effect to prevent anyone with designs upon affecting department 
investigations from attempting to contact people in the 
Department of Justice. We had a couple of instances where we 
learned of that and apprised the White House accordingly that 
that was not the way that we intended to conduct the business 
of the Department of Justice.
    Mr. Scott. Thank you. My time is about up.
    I yield to the gentleman from Virginia.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Thornburgh, thank you for being here today. You have 
heard so many people compliment you on your great record of 
public service to this country, and we certainly thank you for 
that.
    But taking your own words today, you said you are here 
today as an advocate for Dr. Wecht, and I assume that your firm 
represents Dr. Wecht. I think that was your testimony.
    Mr. Thornburgh. Yes, we do. Yes.
    Mr. Forbes. And you do not represent him as a part of that 
public service. You are representing him for compensation, your 
firm is.
    Mr. Thornburgh. Exactly.
    Mr. Forbes. Isn't that correct?
    Mr. Thornburgh. We are engaged----
    Mr. Forbes. And you are paid for that?
    Mr. Thornburgh. Exactly.
    Mr. Forbes. Now you suggest that these charges should not 
have been brought against Dr. Wecht. They were brought in a 
Federal court, as I understand it. Is that correct?
    Mr. Thornburgh. They were indeed.
    Mr. Forbes. And did your firm file a motion to dismiss in 
that matter?
    Mr. Thornburgh. We did.
    Mr. Forbes. And a Federal judge heard that case?
    Mr. Thornburgh. Yes.
    Mr. Forbes. He was not the prosecutor, was he?
    Mr. Thornburgh. I am sorry?
    Mr. Forbes. The Federal judge was not the prosecutor, was 
he?
    Mr. Thornburgh. No.
    Mr. Forbes. And he heard your written statements and he 
heard whatever arguments you made and he denied your motion to 
dismiss. Is that correct?
    Mr. Thornburgh. That is correct.
    Mr. Forbes. So he basically disagreed with you that the 
charges should not have been brought. In addition to that, this 
case is set for trial in January. Is that correct?
    Mr. Thornburgh. That is correct.
    Mr. Forbes. The prosecutor could not very well come here 
today and testify on any of the contrary facts that he might 
have because if he did that, wouldn't that be unethical for 
him, and wouldn't that certainly lead to the appearance of him 
politicizing this issue by coming here and setting forth those 
claims in a forum like this?
    Mr. Thornburgh. Under department rules, that is true, 
although I understand that the United States attorney has 
testified in secret to this Committee.
    Mr. Forbes. Well, there is a difference between testifying 
perhaps if you are required to testify somewhere else and 
between in a public forum like this, isn't it?
    Mr. Thornburgh. Well, it is, indeed, but on occasion, when 
I was Attorney General and when I was myself a U.S. attorney, 
testimony was given to Committees of Congress who had a 
legitimate oversight interest in particular matters----
    Mr. Forbes. Well----
    Mr. Thornburgh [continuing]. And that rule is not a hard-
set rule.
    Mr. Forbes. So then you would suggest it would have been 
more appropriate if the Democratic majority actually called her 
in to answer questions to them? You would suggest that it would 
have been better for the prosecutor to be able to come in a 
public hearing like this before the case was tried in January 
to talk about the case?
    Mr. Thornburgh. I think in this instance where the 
Committee has expressed such a high degree of interest in the 
circumstances surrounding this prosecution, that might be 
appropriate. I do not know what her testimony was. I am merely 
responding, at your request, at this Committee's request----
    Mr. Forbes. Well, we have not finished----
    Mr. Thornburgh [continuing]. To present the point of view 
of a person charged with a highly irregular pattern of crimes. 
We will argue the case to the jury and defend this individual--
--
    Mr. Forbes. Mr. Thornburgh, my time--I do not have quite 
the same privilege that you do. I will be cut to 5 minutes. So 
I am just going to say I understand you will argue that case. I 
think that is appropriate to do. I would just be very concerned 
if the attorney trying this case came here and presented all 
these facts and discussed it today. I think that would be 
highly inappropriate for her, and I think we end up not having 
that.
    Mr. Shields, in your report--and let me just make sure I am 
correct here--by your own study, you put, ``This is not a 
longitudinal study.'' I am sorry. ``This longitudinal study is 
not a legal study. It does not purport to track the actual case 
history of any individual, other than as it may have been 
reported in the news story or the Federal press release.'' Is 
that true?
    Mr. Shields. Yes, that is true.
    Mr. Forbes. So you based yours on the press release?
    Mr. Shields. Well, no, the Justice Department will not 
release the data on cases. Mr. Congressman, as you well know, 
the Justice Department will not release the data on the actual 
investigations and----
    Mr. Forbes. In fact----
    Mr. Shields [continuing]. Who they are investigating, but--
--
    Mr. Forbes. Mr. Shields, my time is about out, but we just 
had a hearing last week, and one of the witnesses came up and 
said, ``Thank you for at least pointing out that prosecutors 
oftentimes cannot disclose all the information.'' Oftentimes, 
the information is not disclosed out of there, but one of the 
things----
    Mr. Shields. Well, if they had not----
    Mr. Forbes. Mr. Shields, you can respond to anybody else. I 
do not have much time. I have about 30 seconds.
    Mr. Shields. Okay.
    Mr. Forbes. But we had some investigations by the Justice 
Department. You have Robert Nell. You got Jack Abramoff. You 
got David Safavian . You got Neal Volz. You got Tony Rudy. You 
got Roger Stillwell. And we hear a lot of people come in and 
say, ``Look at all this corruption by the Republicans,'' and I 
am sure some of them felt that that was improper and wrong, 
too.
    Mr. Jones, I do not have much time to ask you any 
questions, but I know that when the initial allegation against 
Governor Siegelman were brought up, you were the U.S. attorney 
at that time--is that correct--or at some point in time when 
those allegations----
    Mr. Jones. In the Bobo investigation, they were never 
brought up. What I said in my statement was an assistant 
attorney general for the state hoped they were going to go that 
far. It never came up. So----
    Mr. Forbes. But you subsequently testified you are a 
longtime friend of Governor Siegelman's, right?
    Mr. Jones. Oh, yes. Yes.
    Mr. Forbes. And at one point in time, you were trying a 
case, and did the court ask you to stop?
    Mr. Jones. Well, after the Bobo case was reversed and came 
back and Governor Siegelman was, in my opinion, shockingly 
included in that, I sought to continue to represent him. I was 
his lawyer at that time, but because I had initially agreed 
that the early Bobo case that did not include Siegelman come to 
my district, Judge Clemens felt that that would not be 
appropriate for me to represent him.
    Mr. Forbes. So you disagreed with him, but the judge told 
you that you could not represent him in that case?
    Mr. Jones. Yes.
    Mr. Forbes. And also you have given significant campaign 
contributions to Federal candidates across the country, 
Democrats, including Members on this Committee, correct?
    Mr. Jones. Yes, sir.
    Mr. Forbes. Okay.
    Mr. Chairman, thank you for your patience. My time has 
expired.
    Mr. Scott. Thank you.
    The gentlelady from California?
    Ms. Sanchez. Thank you.
    Mr. Thornburgh, you served as the U.S. attorney for the 
Western District of Pennsylvania, the very district in which 
Dr. Wecht is charged with corruption. Is that correct?
    Mr. Thornburgh. That is correct.
    Ms. Sanchez. Okay. In your testimony, you mentioned that 
his indictment is not one which normally constitutes a 
corruption case. What would a normal corruption case resemble, 
and is there a threshold of activity that you looked for when 
you were the U.S. attorney in bringing those types of charges?
    Mr. Thornburgh. The normal type of corruption, in my view, 
is where there is a bribery case, an extortion case, a conflict 
of interest that gives rise to some financial gain for an 
officeholder, as distinguished from a series of minor 
irregularities that are apparent in this case that under a 
broad reading of the Federal mail fraud and theft of services 
statutes have attempted to be converted into Federal felonies, 
and that is what brought my attention to this case and these 
aspects I have discussed this morning.
    Ms. Sanchez. So, in your opinion, the case that is brought 
against Dr. Wecht is not the typical kind of corruption case 
that you hear about in the news headlines about----
    Mr. Thornburgh. Absolutely.
    Ms. Sanchez [continuing]. People taking bribes, quid pro 
quos or favors or those types of things?
    Mr. Thornburgh. Absolutely. They all relate, I might add, 
to the conduct of his outside business, a practice that is 
expressly condoned by the authority under which he holds 
office. There is nothing sinister about him holding public 
office and doing the outside business, and----
    Ms. Sanchez. In fact, that outside business sometimes 
helped prosecutors in some of the counties?
    Mr. Thornburgh. In large part, he was engaged by 
prosecutors in outlying counties, more rural counties where 
they did not have the forensic pathology capability available, 
and he did that not only in Pennsylvania, but across the Nation 
and, in fact, in major high-profile cases because of the wide 
respect that he has attained.
    Ms. Sanchez. I am interested in getting at the particulars 
of this case. I have read your written testimony, and you 
indicated that the U.S. attorney's office in the Western 
District of Pennsylvania has taken an overly expansive view of 
Federal criminal jurisdiction to effectively transform common 
events in the public workplace into Federal felonies, and one 
of the examples, if you could just refresh my memory, involved 
faxes and a total net worth of about--the number of $24 sticks 
in my mind.
    Mr. Thornburgh. Well, I do not know what the exact amount 
befixed on the use of a fax machine, but, in point of fact, a 
number of the counts in this indictment relate to Dr. Wecht's 
alleged use of a county fax machine to send his curriculum 
vitae or to send his fee schedules or to send reports to some 
of those agencies for which he had done outside work or to 
other sources that had requested him to speak. He is widely 
known as a speaker on these issues. And each one of those 
illicit, supposedly, uses of the fax machine is charged as a 
felony in this indictment. It does not make any sense.
    Ms. Sanchez. I would agree with you. I think that most 
people occasionally use a fax machine in their office to 
conduct stuff that perhaps is not directly related to their 
work, but----
    Mr. Thornburgh. It is probably not ethical, but hardly a 
Federal felony.
    Ms. Sanchez. A Federal felony. How would you suggest that 
Congress change the law so that public corruption cases are 
based on evidence of criminal activity rather than ordinary 
types of events in the public workplace?
    Mr. Thornburgh. I think a review of the type suggested by 
Judge Easterbrook and cited in my written statement would be in 
order of these statutes that are so loose in their potential 
application, notably section 666 and 1346, which he said have 
an open-ended quality to them that permits prosecutors to kind 
of define the crime themselves. I think the Congress ought, in 
its oversight function, to examine precisely how those statutes 
have been interpreted and to tighten them up, and----
    Ms. Sanchez. So that we are not charging people with 
Federal felonies for taking pencils home from their workplace?
    Mr. Thornburgh. Exactly. Exactly.
    Ms. Sanchez. In your written testimony, you also indicate 
that the public's perception of apparent politics at the 
Department of Justice will not be easily changed or remedied. I 
am interested in knowing what steps could the Attorney General 
take to change the public perception that improper political 
considerations are being injected into prosecutorial decision-
making at the Department of Justice.
    Mr. Thornburgh. I think an important step has already been 
taken in that regard with the appointment, subject to Senate 
confirmation, of Judge Michael McCasey, a widely respected 
jurist who has experience in the Department of Justice and who, 
as noted here today, at his hearing testified that partisan 
politics should play no part in either bringing of charges or 
the timing of charges, and the timing is important as well, as 
we pointed out in our statement, that these cases were all 
brought against Democrats in the run-up to the 2006 election.
    But Judge McCasey has clearly indicated his concern over 
these allegations, over the image of the department, over the 
integrity and reputation of the department, and I think he will 
ask for and deserves the support of your Committee and its 
counterparts in the other House.
    Ms. Sanchez. Thank you, Mr. Thornburgh.
    I yield back the balance of my time.
    Mr. Scott. Thank you.
    The gentleman from Florida, Mr. Keller?
    Mr. Keller. Well, thank you very much, Mr. Chairman.
    Mr. Thornburgh, I do not know if Dr. Wecht is guilty or 
not. I do know that the Federal judge will ensure that the 
trial is conducted based on witnesses with personal knowledge, 
documents which are authenticated and admissible evidence.
    Your testimony is that there is a perception of an 
appearance that Dr. Wecht may have been prosecuted for being a 
Democrat because the prosecutor might be trying to please the 
White House, possibly to advance her own career. Your 
testimony, to be blunt, is the most pathetic example of 
speculation and innuendo and hearsay that I have seen in 7 
years on this Committee.
    I think it is totally ridiculous to imply that the 
President of the United States would call up a United States 
attorney and say, ``Why don't you go find some local Democrat 
elected official, preferably a dog catcher or coroner, and 
prosecute the hell out of them to help us keep the U.S. 
Congress in Republican hands?'' It is so farfetched, I am 
almost embarrassed to be an attorney listening to it.
    And you go so far as to buttress your unsupported 
assertions by quoting a local opinion columnist who then 
speculates that ``U.S. Attorney Mary Beth Buchanan might well 
consider Dr. Wecht a plum target, good for many brownie points 
at the White House.'' I think it is fair to say that is a 
pretty tenuous argument for questioning the honor and integrity 
of a United States attorney.
    So let me get back to some of the real evidence issues here 
and ask you do you, sir, have any personal knowledge of any 
conversations between U.S. Attorney Buchanan and the President 
in which it was discussed that Dr. Wecht should be prosecuted 
because he is a Democrat?
    Mr. Thornburgh. I would be mortally embarrassed if I had 
come before this Committee and made a charge that the President 
of the United States had had conversations with U.S. Attorney 
Buchanan.
    Mr. Keller. I will take that as a no.
    Mr. Thornburgh [continuing]. For such statements, and you 
should be cited for misciting the record.
    Mr. Keller. Well, it is right there. I am quoting your 
statement.
    Mr. Thornburgh. I did not ever say that the President of 
the United States had any discussions with Ms. Buchanan.
    Mr. Keller. Do you have any personal knowledge of any 
conversation between any White House officials and the U.S. 
Attorney Buchanan in which it was discussed that Dr. Wecht 
should be prosecuted for being Democrat?
    Mr. Thornburgh. Ms. Buchanan's testimony to this Committee 
was given in secret, and I have no access to that, so I cannot 
answer that.
    Mr. Keller. You have no such personal knowledge, do you?
    Mr. Thornburgh. Not at this point.
    Mr. Keller. Do you have any personal knowledge of any 
conversation between any Department of Justice official and 
U.S. Attorney Buchanan in which it was discussed that Dr. Wecht 
should be prosecuted because he is a Democrat?
    Mr. Thornburgh. No, I might remind the Member that the 
Department of Justice has refused to make any of this 
information available to this Committee.
    Mr. Keller. You do not have any personal knowledge----
    Mr. Davis. Mr. Chairman, point of order.
    Mr. Keller. I would like my question answered.
    Mr. Davis. Point of order, Mr. Chairman. May the former 
Attorney General of the United States be allowed to finish his 
answer?
    Mr. Keller. I can reclaim my time anytime I like.
    Mr. Scott. The Committee will come to order.
    Mr. Keller. Yes.
    Mr. Scott. The gentleman will proceed. We would appreciate 
it if you would, if you are going to ask a question, give him 
an opportunity to respond.
    Mr. Keller. I would like an answer. Do you have any 
personal knowledge of any conversation between U.S. Attorney 
Buchanan and any Department of Justice official whence it was 
discussed that Dr. Wecht should be prosecuted because he is a 
Democrat?
    Mr. Thornburgh. Obviously not.
    Mr. Keller. Do you have any personal knowledge of any 
conversation between U.S. Attorney Buchanan and anyone on this 
planet in which it was discussed that Dr. Wecht should be 
prosecuted because he is a Democrat?
    Mr. Thornburgh. Obviously not, since I have no access to 
the public record created by her testimony.
    Mr. Keller. Have you seen any letter or other document 
between the U.S. attorney and any person on this planet in 
which it was discussed by U.S. Attorney Buchanan that she was 
pursuing Dr. Wecht because of his political affiliation as a 
Democrat?
    Mr. Thornburgh. What we have done is respond to this 
Committee's request in your investigation of allegations of 
political influence with a set of facts that raise real 
questions about why this prosecution was initiated in the first 
place. We do not have access, as you do or as other authorities 
might have, to the record that would seek to verify those 
facts, but we have raised these questions, and we think that is 
a legitimate role for the Congress to play in its oversight 
function.
    Mr. Keller. Mr. Attorney General, you have not seen any 
letter or other document?
    Mr. Thornburgh. No, of course not.
    Mr. Keller. Okay. You have made the factual assertion that 
the Department of Justice demonstrated that if you play by its 
rules, you will advance. Can you give me the U.S. attorney 
whose career has advanced solely because he or she prosecuted 
Democrats?
    Mr. Thornburgh. Those were disclosures made in the course 
of the investigation being carried on into political influence 
within the department.
    Mr. Keller. Do you have the name of any U.S. attorney who--
--
    Mr. Thornburgh. Have I spoken with him personally?
    Mr. Keller. The name?
    Mr. Thornburgh. I relied on news accounts and other 
authorities that----
    Mr. Keller. Tell me the name of the U.S. attorney who was 
promoted, advanced, according to what you said, because he or 
she prosecuted a Democrat?
    Mr. Thornburgh. I cannot give you that information 
specifically now.
    Mr. Keller. Mr. Chairman, my time has expired.
    Mr. Cannon. Mr. Chairman, may I inquire about just a matter 
of order in the Committee? We have had a couple of times when 
Republicans have been questioning witnesses, not just in this 
Committee, since we actually have not met as a joint Committee 
before, but in the full Committee. I think Mr. Davis made a 
point on a couple of occasions that the Member should let a 
witness answer.
    There is no rule, I believe, that requires that a witness 
should answer. We have the right to inquire, I believe, and if 
we are a little coarse with a witness, I think that is 
appropriate, because sometimes we have witnesses that are a 
little bit not forthcoming, so I think it would be----
    Mr. Davis. Mr. Chairman, if I might respond?
    Mr. Cannon. Well, pardon me. I----
    Mr. Scott. The Committee will----
    Mr. Davis. My name was invoked.
    Mr. Cannon. May I just finish by saying that if the Chair 
would please make it clear that it is the gentleman's time or 
the gentlelady's time who is making the inquiry, I would 
appreciate that.
    Mr. Scott. The Committee will come to order.
    And we would appreciate, just as a matter of courtesy, that 
if you ask the witness a question that the witness be allowed 
to answer. Depending on who the witnesses are, it goes both 
ways, but we will try to be courteous to the witnesses the best 
we can.
    Mr. Keller. Mr. Chairman, if I can just interject, if I am 
asking a witness a question, I am not required to sit here and 
listen to 5 minutes of nonresponsive sentences under any 
scenario----
    Mr. Scott. Well, the gentleman was given----
    Mr. Keller [continuing]. And I will not.
    Mr. Scott. All of the----
    Mr. Forbes. Mr. Chairman, can I ask for some courtesy for 
the former Attorney General of the United States?
    Mr. Scott. The Committee will come to order.
    The opinions have been expressed, and we will move on to 
the next person who is the gentleman from Michigan, Chairman of 
the full Committee.
    Mr. Conyers. Thank you. I thank you for keeping us in order 
and lowering the emotional level that was beginning to rise 
here. You are a great Chairman.
    Now I want to help the gentleman from Florida out. I have 
the name of a case he may want to inquire when he was asking of 
General Thornburgh. If you will examine the case involving U.S. 
Attorney Steven Biskupic, who was on the list to be fired and, 
after he indicted Georgia Thompson, his name was restored. His 
name was taken off the list. So he did not get a promotion, but 
he did keep his job.
    And so what I would like to do now is to ask Attorney 
General Thornburgh if he wanted to make any further 
elaboration, as eager as I am to move on, to the questions that 
were put to him by my friend from Florida?
    Mr. Thornburgh. No, Mr. Chairman. I think the distinction 
that I am trying to make is that we are engaged by our client 
to protect his rights and will vigorously defend him in the 
criminal trial set for January.
    Mr. Conyers. Thank you.
    Mr. Thornburgh. There is a separate role, however, as the 
Committee clearly recognizes in the calling of this hearing, 
the oversight role that this Committee has over the conduct of 
the Department of Justice and an examination whether 
allegations of political influence have been present in these 
cases, and it is for that reason that we appear today and set 
forth the testimony that we did.
    Excuse me for interrupting you, Mr. Chairman.
    Mr. Conyers. No, that is quite all right.
    As a matter of fact, the hearing is cautiously entitled 
Allegations of Selective Prosecution. I commend the two Chairs 
for their discretion in titling the hearing.
    But we started off earlier in the year with the 
politicization of the Department of Justice. These hearings 
follow along to allegations of prosecutorial abuse. That is a 
very direct connected line. This is not some off-the-wall 
hearing. This directly follows the work of both these 
Subcommittees that we have gone along.
    Now somehow this former U.S. attorney from Alabama has 
persuaded me to give him a minute of my time, so when I get to 
4 minutes, would somebody please advise me so I can recognize 
him? The yellow light will come on.
    Okay. Thanks, Mel Watt. I will remember this.
    Before the yellow light comes on, I want to put in here 
everything I have said has been beyond controversy, and I just 
want to start off with the statement of the prosecutor from 
Louisiana to show you how far prosecutors have gotten out of 
line.
    He infamously stated to a room full of schoolchildren, ``I 
can ruin your life with the stroke of a pen.'' Can you imagine 
a state prosecutor talking to a group of schoolchildren like 
that?
    And then I have for the record, just for those of you who 
may not remember it, when Attorney General Gonzales spoke 
before U.S. attorneys, he said, ``I work for the White House, 
and you work for the White House,'' and as a matter of fact, it 
cost one U.S. attorney his job, if our investigation was 
correct.
    And then there is Monica--oh, the light went on. Okay, 
there is Monica Goodling who was nervously called into the 
White House by then Attorney General Gonzales, and she was 
interviewed about her steadfastness in her position as liaison 
to the White House, and she admitted sitting right in the chair 
that Donald Fields is in that, ``Yes, I did cross the line a 
number of times in my job.''
    And I yield now to my friend from Alabama, Artur Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    I want to make one quick point before too much time goes 
forward in the hearing.
    And I thank the Chair for yielding.
    The very able Ranking Member is a good friend of mine, Mr. 
Forbes. I was surprised by an assertion that he made during his 
opening statement regarding Jill Simpson, one of the witnesses 
in the Siegelman case. My friend, Mr. Forbes, at one point 
suggested that Ms. Simpson's testimony had been conclusively 
debunked, as he put it, and he amazed me by somehow suggesting 
that the Committee should refer her for prosecution.
    One point that I hope my friend from Virginia will take 
note of--and I would ask unanimous consent to introduce Exhibit 
4 to the Simpson deposition into the record. Exhibit 4 to the 
Simpson deposition is a list of wireless phone calls made from 
her phone--if you examine the phone list, on November 18, 2002, 
the date that she contends that she made a phone call to Rob 
Riley and others, there is a number listed, 205-870-9866, 11/
18, duration for 11 minutes.
    All three affidavits submitted from Mr. Butts, Mr. Lembke 
and Mr. Riley deny that there was a conference call that 
occurred on November 18.
    I ask to also introduce into the record a search for law 
firms in Alabama on NetOpus.net. Enter the law firm name Riley 
Jackson. The following phone number comes up, 205-870-9866----
    Mr. Scott. The gentleman's time----
    Mr. Davis [continuing]. The exact same phone number that 
surfaces in Exhibit 4.
    Mr. Forbes, in light of that revelation that these three 
affidavits are contradicted by the phone record, I ask you to 
withdraw your statement, sir, regarding possible perjury by Ms. 
Simpson.
    Mr. Scott. Is the gentleman asking unanimous consent to put 
these into the record?
    Mr. Davis. Yes.
    Mr. Scott. Without objection.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The gentleman's time has expired.
    Do you want----
    Mr. Forbes. Yes, Mr. Chairman. If the gentleman would 
listen to my statement, I did not say perjury. I said referred 
to the Department of Justice for investigation.
    Mr. Davis. I thought it was extraordinary, Mr. Forbes, sir, 
your statement is contradicted by the phone records.
    Mr. Scott. The gentleman's time has expired. If the Ranking 
Member wants to finish his response or make a response to the 
gentleman's comments----
    Mr. Forbes. Mr. Chairman, I was very careful in saying that 
it should be referred to the Department of Justice.
    And the other thing that I emphasized--the gentleman 
probably heard--was Ms. Simpson's not here. It would be very 
easy to bring Ms. Simpson here--you had the ability to call the 
witnesses--and have Ms. Simpson choose the kingpin, have her be 
in testimony, to have her be here so that we could cross-
examine. She is not here.
    That is my statement, I believe it is accurate, and----
    Mr. Scott. The gentleman's time has expired.
    Mr. Forbes. Thank you.
    Mr. Scott. The Ranking Member of the Subcommittee, Mr. 
Cannon?
    Mr. Cannon. Thank you, Mr. Chairman, and I appreciate the 
calm and thoughtful way you have been handling this hearing.
    A couple of points that I would like to make before I ask 
some questions. In response to Mr. Conyers, I just would like 
to point out to Mr. Biskupic or Biskupic never knew that his 
name was on the list, and I think we have verified that through 
out discussions with various witnesses.
    And, secondly, I would like to congratulate the gentleman 
from Michigan and do hope that the newspapers lead with the 
headline ``allegations'' in huge type, and then the rest of 
this about selective prosecution in small letters, because that 
is clearly the distinction that we are dealing with here.
    And I want to apologize, Mr. Chairman, also. We have a 
markup in Resources, and I have to be over there to vote. I 
have been here other than the voting over there, but I did need 
to be gone. I am sorry.
    I apologize to our witnesses for not having been here for 
the questioning, and I apologize if I am redundant in any way.
    But, Mr. Thornburgh, I would actually like to ask you a 
question, a bit of a loaded question, I grant you, but do you 
believe that your client is innocent?
    Mr. Thornburgh. I believe that the government has the 
responsibility to prove his guilt beyond a reasonable doubt, 
and my role is to hold the government to that standard. My 
beliefs one way or the other are not really relevant.
    Obviously, I believe that this is an unjustified 
prosecution based on the facts that I set forth and which 
involved to me the use of trivial irregularities and an attempt 
to escalate those into Federal felony charges. In that sense, I 
do believe he is innocent.
    Mr. Cannon. Well, that was really quite direct. Thank you.
    I note that we have television cameras here today, and it 
occurs to the mind it is not because of large type allegations 
but because of your presence as a former Republican Attorney 
General. Now I recognize the fact that you have a special 
interest in the Department of Justice and that your concerns 
about the department carry a personalized and a particular 
view.
    But it seems to me that your appearance here today does a 
couple of dramatic things. In the first place, it says that you 
believe strongly enough about this that you should appear. 
Don't you think that affects the nature of the case that is 
going forward in a way that may help your client, but may be 
detrimental to the department?
    Mr. Thornburgh. I would certainly hope not. I appear here 
today as a lawyer for an individual who has been charged with a 
Federal felony, serious, 84 counts of felony, and my job as a 
lawyer is to represent that individual as best I can and see 
that insofar as he is concerned, justice is accomplished.
    Mr. Cannon. That is a very lawyerly statement, and I agree 
with it entirely as a lawyer. But you are not just a lawyer. 
The reason the cameras are here today are not because you are a 
lawyer defending a client who you may believe or whom you are 
just defending and trying to get the best defense possible. 
That is not why they are here. They are here because of your 
prior status. Doesn't that concern you somewhat?
    Mr. Thornburgh. Well, I do have a devotion to the 
Department of Justice. I served over half of my professional 
career in the Department of Justice in one capacity or another, 
and I have spoken out previously on irregularities that I think 
are occurring, most notably on the attempt to subvert the 
attorney-client privilege which has been undertaken by the 
department.
    Mr. Cannon. And we agree on that point, by the way.
    Mr. Thornburgh. Well, that is an example----
    Mr. Cannon. There are lots of issues out here.
    Mr. Thornburgh. Yeah, that is right, and one of the issues 
to me is the overreaching of Federal prosecutors to create 
Federal offenses out of trivial violations of----
    Mr. Cannon. We do not disagree on much, let me just say, 
and, clearly, look, my biggest concern is with your role and 
your history and your current advocacy because you are 
advocating for your client.
    Mr. Thornburgh. I am, indeed. I am here----
    Mr. Cannon. My problem is that the Justice Department will 
always have problems whatever the Administration is, and it is 
the job of this Committee to help keep those things on track. 
It is easy for that organization to go off track a little bit. 
It has, as you know, wonderful institutions, wonderful rules, 
wonderful checks and balances within the department. Those are 
deteriorating for many reasons, including the war on terror.
    I would just in conclusion suggest that you take a step 
back as an advocate and recognize that our job here is not to 
hammer the former Attorney General, not to make a case in a 
narrow sense against one prosecutor or against, say, two 
prosecutors, which, by the way, after having been in some of 
these cases, they are not before us today.
    The fact is we have prosecutors who, generally speaking, 
are doing a good job and, as a Committee, we have a 
responsibility to help reinforce the good and root out the bad, 
and I suspect that if you reflect on this, you are going to 
agree that your advocacy here probably is counterproductive to 
your longer-term views and concerns about the department.
    Mr. Thornburgh. I would certainly hope not, but I 
appreciate your views on that.
    Mr. Scott. Thank you. The gentleman's time has expired.
    Did the gentleman from Georgia have a motion to make?
    Mr. Johnson. Yes, Mr. Chairman. I request that the 
gentleman from Alabama, Mr. Davis, be granted 1 minute of my 
time.
    Mr. Scott. Without objection, the gentleman from Alabama is 
recognized for 6 minutes.
    Mr. Davis. Thank you, Mr. Chairman.
    Thank you, Mr. Johnson, for yielding.
    Mr. Jones, most of my questions would be to you, but I do 
want----
    Mr. Delahunt. Mr. Chairman?
    Mr. Scott. The gentleman from Massachusetts?
    Mr. Delahunt. Yes. A parliamentary inquiry.
    Mr. Scott. State the inquiry.
    Mr. Delahunt. Is it appropriate at this point in time for 
me to move to grant to the gentleman from Alabama 4 minutes of 
my time?
    Mr. Scott. Without objection, the gentleman is recognized 
for 10 minutes.
    Mr. Davis. Thank you, Mr. Delahunt, for being so gracious, 
also.
    Most of my questions, Mr. Jones, would be to you, but I 
want to briefly pick up on the point that I made before. There 
was a loss of exchange between myself and Mr. Forbes.
    One of the irresolvable questions before this Committee is 
the veracity of the individuals who submitted these affidavits. 
This Committee is not a grand jury. This Committee is not a 
jury. So we are enormously limited and we should be limited in 
our capacity to determine who is being accurate and who is not. 
I suppose the public has to make that judgment.
    But I do want to make sure that we do not turn this into a 
hearing in which we cast dispersions on witnesses to suggest 
that they have manipulated their testimony and, if that is 
done, it needs to be done with a factual foundation. So I turn 
again to the point that I made earlier.
    This is a material question here. Simpson alleges that on 
November 18, 2002, she had a conference call with Terry Butts, 
former member of the Alabama Supreme Court who had become 
politically active; a gentleman named William Canary, political 
operative in Alabama whose wife was the U.S. attorney then and 
is still now the U.S. attorney of the Middle District of 
Alabama; and Rob Riley, an attorney who practices at the firm 
Riley Jackson, the son of the current governor.
    Three affidavits submitted today by Mr. Riley, Mr. Butts, 
and another individual who was working for Mr. Butts, Mr. Matt 
Lembke. All three of these affidavits make the assertion that 
there was no phone call on November 18 in which they 
participated with Jill Simpson. Exhibit 4 to the Simpson 
deposition, which I have asked unanimous consent that it be 
introduced into the record of these proceedings, is crystal 
clear on one point. If you look at the bottom of the entry, 11/
18/2002, a call to Birmingham, Alabama, to 205-870-9866, for 11 
minutes. If you run a search on NetOpus.net, you will find 
Riley & Jackson, phone number 205-870-9866.
    Mr. Chairman, I believe I have asked unanimous consent that 
this search inquiry be admitted into the record.
    So, before we make judgments about Simpson or anyone else, 
let those judgments not be immediately contradicted by the 
phone records and the unimpeachable facts.
    Mr. Jones, you mentioned your representation as Don 
Siegelman's attorney in connection with the matters that 
eventually led to his indictment. I want to focus you on one 
timeframe. I want to focus you on the end of 2004, at least the 
last 6 months of 2004.
    Because even with 10 minutes, my time is limited. I am 
going to move to the questions, and I ask you to give me quick 
responses.
    In the end of 2005 or that last 6 months of 2004, were you 
in regular conversations with two prosecutors in Montgomery and 
the U.S. attorney's office, Mr. Feaga and Mr. Franklin?
    Mr. Jones. Congressman, I attempted to be for several 
months after we were told we would get an answer within 30 
days. I attempted to be, and it was very little conversation 
until ultimately the conversation on the telephone in late 
November, early December of 2004
    Mr. Davis. Okay. Now, before we get to that, during the 
period of time when you were in communication with Mr. Feaga 
and Mr. Franklin, did there come a point when they made 
representations to you regarding the quality of their case 
against Mr. Siegelman?
    Mr. Jones. Yes. That was in July of 2004.
    Mr. Davis. Would you quickly tell the Committee about that 
conversation?
    Mr. Jones. Essentially, we were told that most all of the 
allegations that we had been looking at previously had been 
written off, they were too trivial to bring with the former 
governor.
    Mr. Davis. Now let me slow you down. This is important. The 
people who made the representation to you that most of the 
allegations against Don Siegelman had been written off were the 
two prosecutors, Mr. Feaga and Mr. Franklin. Is that right?
    Mr. Jones. That is correct.
    Mr. Davis. All right. Continue.
    Mr. Jones. We were also told that they had narrowed the 
focus down--they had only been on the case, by the way, about 3 
months--into three areas. Two of those areas which I have 
outlined were absolutely clear. There was no crime committed. 
We knew that there was nothing there. They recognized that. The 
issue with the----
    Mr. Davis. And, again, I am going to slow you down. When 
you say ``they recognized that,'' you are saying that Mr. 
Franklin and Mr. Feaga acknowledged to you that two other areas 
had little or no merit?
    Mr. Jones. Well, I will not say they used those terms, but 
it was pretty obvious they were concerned about that area.
    Mr. Davis. Okay.
    Mr. Jones. The third one involved the allegation of this 
appointment of Richard Scrushy to the CON Board, and while Mr. 
Feaga did say----
    Mr. Davis. Now let me slow you down because, again, you and 
I know these facts. Everybody here does not. There was an 
allegation that was eventually included in the indictment that 
Mr. Scrushy was appointed to the state certificate of need 
board and that there was a quid pro quo in which Scrushy agreed 
to contribute money to a lottery initiative the governor was 
sponsoring. That was one of the allegations, correct?
    Mr. Jones. Correct.
    Mr. Davis. And Mr. Feaga and Mr. Franklin indicated to you, 
did they not, that that was the dominant area in which they 
were looking as of July 2004? Is that correct?
    Mr. Jones. That is correct, Congressman.
    Mr. Davis. Did Mr. Feaga and Mr. Franklin characterize to 
you the quality of the evidence around that particular 
allegation?
    Mr. Jones. The way they characterized the evidence, you 
know, Mr. Feaga in particular felt that the circumstantial 
evidence, in his view, was compelling, but as I rattled off all 
the defenses and all of the facts that were holes that they had 
in the case, which they never filled, by the way, he also 
acknowledged that the defenses in that case factually and 
legally were also compelling, and it was very troubling, and it 
indicated to us that if he could not fill those holes, then 
likely these charges would not be brought.
    Mr. Davis. Did the lottery transaction or the alleged quid 
pro quo rest on the testimony of one particular cooperating 
defendant, Nick Bailey?
    Mr. Jones. Nick Bailey solely.
    Mr. Davis. Did Mr. Feaga indicate to you in his 
conversations that there were problems with the credibility of 
Nick Bailey?
    Mr. Jones. Yes. Everyone----
    Mr. Davis. Would you tell the Committee about that?
    Mr. Jones. He knew that. Everyone knew that. Mr. Bailey had 
committed several crimes with Lanny Young. He had taken a 
couple hundred thousand dollars worth of bribes, and there was 
a serious gap factually in----
    Mr. Davis. In addition to the normal kinds of impeachment, 
cooperating witness, the fact that Mr. Bailey admitted to 
numerous crimes, did Mr. Bailey or did Mr. Feaga indicate to 
you that at one point Mr. Bailey had changed his story 
regarding the transaction?
    Mr. Jones. Not at that time. Not at that time, Congressman. 
At that time, that was the significant gap because what Mr. 
Bailey was telling them could not match up to the objective 
facts about when the check was cut, when it was delivered to 
Montgomery.
    Mr. Davis. And did Mr. Feaga acknowledge that there was 
this gap based on Mr. Bailey's testimony?
    Mr. Jones. Oh, yes, sir. Absolutely. And it was not until 
later when I brought that back up--and this would have been in 
2005--where he said, ``Well, Mr. Bailey has now essentially 
rethought his testimony, and that is not''----
    Mr. Davis. All right. But as of July of 2004, did Mr. Feaga 
suggest to you that there were major factual gaps in Nick 
Bailey's testimony?
    Mr. Jones. Yes, sir. That is why he wanted us to toll the 
statute of limitations so they could try to fill those gaps.
    Mr. Davis. All right. What was your state of mind in July, 
early summer of 2004, regarding the likelihood of the U.S. 
attorney's office bringing a case against Don Siegelman?
    Mr. Jones. All three of us--all three of the defense 
lawyers--felt like that case was coming to a close within the 
next----
    Mr. Davis. And was that based on statements or your reading 
from statements that the prosecutors--Mr. Franklin, Mr. Feaga--
made to you?
    Mr. Jones. It was based on those statements. It was based 
on my 20-something years of experience, and it was based on our 
own investigation.
    Mr. Davis. Did there come a point at the end of 2004 when 
Mr. Feaga indicated to you that he had been in communications 
with the Department of Justice regarding this case?
    Mr. Jones. That is correct. In late November of 2004, early 
December, Mr. Feaga apologized for not giving us the answer he 
had promised earlier, but indicated there had been a meeting in 
Washington and that the lawyers in Washington had asked him to 
go back and look at the case, review the case top to bottom.
    Mr. Davis. Did Mr. Feaga suggest to you when the 
communications with the lawyers in Washington had happened 
regarding the Siegelman case?
    Mr. Jones. He did not. He just said, ``We had a meeting in 
Washington.''
    Mr. Davis. But your interaction with Mr. Feaga was in 
November 2004. Is that correct?
    Mr. Jones. Correct.
    Mr. Davis. Inferring to you that the conversations happened 
at some point prior to November 2004?
    Mr. Jones. That is correct.
    Mr. Davis. We have had the Ranking Member introduce into 
the record the full transcript, the sworn transcript, of Jill 
Simpson's testimony of September 14. Let me refer to it.
    On pages 50, 51 and 52, Ms. Simpson testifies that in early 
2005, she had an exchange with an individual, Rob Riley, and 
that Mr. Riley made the representation to her that he had been 
told that Karl Rove, the President's former political adviser, 
had been in communication with the Office of Public Integrity 
and that he, Mr. Rove, had prodded the Office of Public 
Integrity to bring a case against Mr. Siegelman.
    Certainly, all of us figured on time to review in detail 
what she said, but that is contained on pages 50, 51 and 52. In 
other words, Ms. Simpson's suggests that the timeframe of 
Rove's intervention happened in late 2004, Mr. Rove's 
intervention at the Department of Justice.
    Mr. Jones, did Mr. Feaga indicated to you that he had been 
in communication with the Department of Justice at some point 
in late 2004 during the exact timeframe as Simpson alludes to?
    Mr. Jones. Congressman, he not only indicated to me, but 
there were lawyers representing witnesses later on that he also 
made the same representations to. Yes.
    Mr. Davis. Mr. Chairman, my time has expired. I will have 
my 5 minutes come around to me eventually, but I thank my 
colleagues for yielding their time to me.
    Mr. Scott. Thank you. I think we used your 5 minutes. You 
had 4 from Delahunt, 1 from the gentleman from Georgia and your 
5. So I think you may be getting someone else's.
    Ms. Lofgren. Mr. Chairman, I would be happy to yield a 
minute of my time to the gentleman.
    Mr. Scott. Okay. Let's go at this time to the gentleman 
from Ohio, Mr. Jordan?
    Mr. Jordan. I thank the Chairman. I would like to yield a 
couple minutes to the Ranking Member on the Commercial 
Committee.
    Mr. Cannon. Thank you. I appreciate the yielding.
    And I am intrigued by the gentleman from Alabama, Mr. 
Davis, who, as I understand, was a prosecutor and who is now 
interrogating a friendly witness based upon conversations with 
the opposition, and I think the record should sort of reflect 
the fact that the testimony thus far is sort of one-sided.
    I would like to suggest a couple of things here. In the 
first case, Mr. Feaga is a well-known prosecutor who, in fact, 
did prosecute Democratic Governor Siegelman, but he also 
prosecuted former Republican Governor Guy Hunt. This is a guy 
who I think is well-respected in the field. You may have some 
personal views about him. I do not know, Mr. Davis. But he is 
not a Republican hack going after Democrats. I do not think 
that would be fair to say.
    And I would like to ask unanimous consent to introduce into 
the record a letter to The New York Times sent by Mr. Feaga, 
and I am just going to read one paragraph, and then I will 
yield back.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Davis. If the gentleman would yield, he is actually a 
very fine lawyer, and I work with him. He inquired about my 
personal opinion, a very fine man, a very fine lawyer. I did 
not suggest otherwise.
    Mr. Cannon. I appreciate that, especially in the context of 
his statement. This is a letter to the editor of The New York 
Times, I believe. ``The case of the United States v. Siegelman 
was pursued and successfully prosecuted because my co-counsel 
and I, a grand jury, a trial jury and a Federal judge, after 
hearing the facts, believed that those facts established that 
Siegelman unlawfully sold out the best interests of the people 
in the State of Alabama. Any assertion to the contrary, 
regardless how well or maliciously intended, is just plain 
wrong. We are not a court of law. We are not a jury. We are not 
looking at Mr. Feaga.''
    And I think that he has actually come out of this 
particular round of this discussion pretty darn well, and the 
friendly witness testimony to the contrary notwithstanding, 
this is not about whether Mr. Siegelman should or should not be 
in jail. It is about the Department of Justice, and I think 
that what we have heard so far is not compelling that we have a 
problem with it or the problems we have are not being resolved 
by this hearing.
    And I would yield back to the gentleman from Ohio, and I 
think that the gentleman, Mr. Forbes, would like to have time 
yielded to him.
    Mr. Jordan. Mr. Chairman, I would like yield the remainder 
of my time to Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Jones, I just want to come back to you because, you 
know, the problem we have with these hearings is we get all 
kinds of apples and oranges and everything that is involved, 
and I know that you did not get to be in the trial with 
Governor Siegelman. That was your testimony.
    Mr. Jones. Correct. That is correct.
    Mr. Forbes. But Governor Siegelman did go to trial. Isn't 
that true?
    Mr. Jones. He did.
    Mr. Forbes. And he had, I am sure, talented and competent 
attorneys who you would worked with before, and you do not lay 
any claim that they were not competent or did not do a good job 
at the trial, did you?
    Mr. Jones. You know they are sitting right behind me, and I 
would not dare say that. [Laughter.]
    Mr. Forbes. They would beat you. They would hit you with a 
chair by then.
    Mr. Jones. No. You are right.
    Mr. Forbes. And all they were able to ask whatever 
questions they want under the appropriate rules of procedure 
for the court to the witnesses that were testifying at that 
trial, weren't they?
    Mr. Jones. I am assuming that is true.
    Mr. Forbes. And at the end of all of that trial, not the 
short little tidbits that we have here today, but at the end of 
the trial, a full Federal trial, a jury found Governor 
Siegelman guilty. Is that correct?
    Mr. Jones. That is correct.
    Mr. Forbes. And I am sure there were motions made after 
that to the Federal judge to find something that the jury did 
wrong, and the judge said no and he sentenced Governor 
Siegelman based on that trial. Is that accurate?
    Mr. Jones. That is correct.
    Mr. Forbes. And now that is up on appeal, and we trust 
judges to look at that. In fact, the Chairman of this Committee 
made a statement the other day when he came in to national 
security issues. If you trust judges, you do not have any 
problem with this act. We trust them for national security 
issues, but we do not trust them on these kind of legal 
procedures.
    And, basically, Mr. Thornburgh raised the question about 
the appearance of impropriety, and then we emphasize 
allegations. But here is what happens. The cycle repeats itself 
over and over again. You make allegations. You bring witnesses 
in who make statements sometimes without facts because it is 
something they have read in the paper or they have heard or 
they have seen. The prosecutors cannot even come in here and 
refute it because they feel ethically that would be improper to 
do.
    Then you make the allegations long enough and loud enough, 
people begin believing and taking those allegations as fact, 
and then, all of a sudden, you have an appearance of 
impropriety which leads to the erosion of public confidence. We 
come in here and repeat the cycle over and say, ``Why does it 
happen?''
    Mr. Shields, I hope I will get a few more minutes with you, 
but I only have a couple seconds now.
    You do not have a law degree, do you?
    Mr. Shields. No.
    Mr. Jones. And you do not have a degree in statistics, do 
you?
    Mr. Shields. I have taken a number of statistics courses.
    Mr. Scott. Will the gentleman use the microphone, please?
    Mr. Jones. But you have taken some courses, right?
    Mr. Shields. I have taken about 18 hours worth, yes.
    Mr. Jones. Okay. And in just the couple of seconds I have 
left, why did you not limit the data in your study to either 
actual indictments or convictions instead of just the ones that 
were reported in newspapers?
    Mr. Shields. Well, because I am a communication professor, 
and I am interested in communications.
    Mr. Jones. That is right. You are a communication 
professor, and you are not looking at statistics of what 
actually happened. You are looking at the communications. But 
isn't it true--or maybe you do not know this, not having a law 
degree or a statistics degree--but a lot of investigations by 
prosecutors are never made public, are they?
    Mr. Shields. No, but they are just as damaging when they 
are made public, as if they had prosecuted.
    Mr. Jones. I am sorry?
    Mr. Shields. As if they had indicted----
    Mr. Jones. No, no. When you are looking at the 
investigations, there are a lot of investigations that take 
place that are not reported in newspapers. Isn't that true?
    Mr. Shields. Well, I have found----
    Mr. Jones. But you do not know that. You are not a lawyer.
    Mr. Shields. I am not a lawyer, but I have found a number 
of investigations were reported in the newspaper.
    Mr. Jones. I see, but you do not know about the ones that 
were not reported in the newspapers.
    Mr. Shields. No.
    Mr. Jones. Okay. Thank you.
    Mr. Shields. The DOJ will not give us that information.
    Mr. Jones. That is right.
    I yield back.
    Mr. Scott. The gentleman from North Carolina, Mr. Watt?
    Mr. Watt. Thank you, Mr. Chairman.
    Professor Shields, I am struck by one particular section of 
your testimony that I want to read into the record and get you 
to elaborate on.
    Your hypothesis was that party affiliations of the 
officials and candidates investigated would match the normative 
data. I am reading from page 4 of your testimony. However, the 
sample includes 631, 76.95 percent, investigations of Democrats 
and 142, 17.32 percent, investigations of Republicans, and 47, 
5.73 percent, investigations of Independents or other 
officeholders or candidates.
    And then you say this, which I want to make sure that 
nobody misses, ``The disparity in the proportions of the actual 
sample between investigations and-or indictments of Democrats 
in relation to Republicans is again statistically significant 
beyond the .0001 level and could have occurred by chance less 
than one in 1,000 samples.
    Mr. Shields. Yes, that is 10,000.
    Mr. Watt. One in 10,000 samples. Does that mean, Professor, 
that all else, everything else being equal, the chances of no 
political partisanship being taken into consideration in this 
grouping of prosecutions, charges, investigations, is less than 
one in 10,000?
    Mr. Shields. It is pretty significant data, yes. That is 
the point. Less than one in 10,000 chances of this data being 
in error when you do the chi-square statistic.
    Mr. Watt. Okay. And so if you just did a regular 
statistical analysis, the chances that something other than 
sheer chance was taken into account?
    Mr. Shields. That is correct. That is correct.
    Mr. Watt. It is less than one in 10,000.
    Mr. Shields. Yes.
    Mr. Watt. Okay. That is what I wanted to be clear on.
    With that, I will yield the balance of my time to the 
gentleman from Alabama.
    Mr. Davis. Thank you, Mr. Watt.
    Mr. Jones, let me return to you, and let us pick up the 
timeframe that we previously talked about after Mr. Feaga 
represented to you that the Department of Justice wanted a 
review of this case. As you move into the 2005 calendar year, 
did there seem to be a change in the tenor and the tone of the 
investigation that you noted?
    Mr. Jones. A hundred and eighty degrees opposite.
    Mr. Davis. Would you tell us about it?
    Mr. Jones. Every month with the grand jury, we saw new 
witnesses coming forward. Everything was back off the table. 
The Federal role was, I think, greater. It was very public, and 
it was very intense. It was not a review literally as a review. 
It was as if the case started all over again.
    Mr. Davis. Did it appear that the U.S. attorney's office 
had ceded a significant amount of the day-in, day-out 
responsibility in this case to the Department of Justice?
    Mr. Jones. Well, the FBI were doing the day to day, and Mr. 
Feaga was conducting most of that grand jury, as I understand 
it.
    Mr. Davis. Does the name Noel Hillman register to you?
    Mr. Jones. Yes. He was head of the public integrity section 
at the time.
    Mr. Davis. Did Mr. Hillman at some point move from public 
integrity to become a United States district judge?
    Mr. Jones. He did.
    Mr. Davis. And was it shortly after the period of time in 
which he would have been the Office of Public Integrity to go 
from Public Integrity to the U.S. district judgeship?
    Mr. Jones. That is correct. That is correct.
    Mr. Davis. Let me refer to the opening statement that you 
have submitted to the Committee today. I want you to elaborate 
on this sentence. You talk about how the tenor and tone of the 
investigation changed, and there appeared to be a systematic 
effort to gather any negative evidence on Mr. Siegelman.
    This is what you say, ``Targeting individuals rather than 
crimes taints that entire process,'' referring to the system of 
justice, ``and gives investigators and prosecutors an ends-
justify-the-means license to abuse the public's trust.''
    Mr. Jones, would you elaborate on what you mean by that 
sentence?
    Mr. Jones. Certainly, that is exactly what appeared to have 
happened here. There were allegations that had surfaced that 
had been written off, but then, all of a sudden, there was this 
much wider net that we were seeing that included every 
financial contributor, every investment that Don Siegelman had 
made, every check that his wife had written. This was--my 
public statements reflect it--an investigation about an 
individual, and that is just something that we cannot tolerate 
in this country, to investigate individuals. It does give 
prosecutors--and investigators as well--licenses to change, to 
twist, to cajole testimony.
    Mr. Davis. Mr. Thornburgh, would you comment on that?
    Mr. Thornburgh. I think that the responsibility of 
prosecutors at every level of government is simply to follow 
the evidence wherever it leads, and oftentimes it leads to 
people in high public office, and they should not hesitate to 
prosecute those persons. But it is all evidence based and not 
based on any targeting process.
    Mr. Scott. The gentleman's time has expired.
    The gentlelady from Ohio, do you have a motion?
    Ms. Sutton. Thank you, Mr. Chairman.
    I ask unanimous consent to yield my 5 minutes to the 
gentleman, Mr. Davis.
    Mr. Forbes. Mr. Chairman, I have no problem with her 
yielding her 5 minutes when it is time for her to go, if that 
is okay.
    Mr. Scott. Without objection, her time is yielded to the 
gentleman from Alabama and will be used when her time would 
have come up.
    Ms. Sutton. Thank you, Mr. Chairman.
    Mr. Scott. The gentleman from Texas, Mr. Gohmert?
    Mr. Gohmert. Thank you, Mr. Chairman.
    And I appreciate the witnesses being here.
    As a former judge, former prosecutor, former chief justice, 
I am always curious as to how people arrive at conclusions, and 
so I am curious about a number of things.
    First of all, I really do not know the answer. Do you know 
how many Democratic Party members are elected officeholders in 
the United States? Any one of you?
    Mr. Shields. The total number of elected officials in the 
United States is estimated at slightly over 500,000, and so it 
would be about 50 percent of that.
    Mr. Gohmert. And where does that information come from?
    Mr. Shields. The total number of elected officers, I think, 
comes from the Department of Commerce, and the 50 percent 
information comes from the Eagleton Institute of Rutgers 
University.
    Mr. Gohmert. The Eagleton Institute?
    Mr. Shields. Yes.
    Mr. Gohmert. Okay. And do you know how recent that 50 
percent figure was obtained and how it was obtained?
    Mr. Shields. Yes. I obtained it when I started the study, 
and it is as recent as 2002.
    Mr. Gohmert. Okay. All right. So it does not take into 
account, well, I guess the last 5 years then. And that is 
interesting that it is 50-50, and it is----
    Mr. Shields. No, it is 50, 41 and 9.
    Mr. Gohmert. Oh, 50----
    Mr. Shields. Forty-one Republican and 9 Independent-Other.
    Mr. Gohmert. Oh, okay. So there are many more Democratic 
Party member officeholders than there are Republicans.
    Mr. Shields. Well, there is 9 percent more.
    Mr. Gohmert. Okay. All right. Okay. And by your study, have 
you ruled out the possibility completely that perhaps there are 
more Democratic Party member officeholders who have violated 
the law than there are Republicans who have violated it?
    Mr. Shields. Well----
    Mr. Gohmert. Do you just take that as a given or----
    Mr. Shields. No, Mr. Gohmert. That is a legitimate 
question, and that is why I had the control group with 
nonfederal law enforcement from the state and county, the city 
prosecutorial level as reported in the study. There were 251 
individuals in that, and there the investigations reflected 50 
percent Democrat, 41 percent Republican and 9 percent 
Independent/Other, which, across the Nation, meant that it 
exactly matched the percentages of elected officeholders. So--
--
    Mr. Gohmert. Okay. So----
    Mr. Shields [continuing]. That there was no political bias 
at the state and local level, and the question then became: Why 
is there at the Federal level?
    Mr. Gohmert. Okay. So you would take a city or take 251. 
How did you arrive at those 251?
    Mr. Shields. Selected them from newspaper accounts and 
television accounts using Google searches.
    Mr. Gohmert. Right. But you are saying that was your 
control group. I find it interesting, though, when you try to 
extrapolate numbers across the country because we know from 
some of our Committee hearings, for example, there are six 
murders per 100,000 people in New York, there were 50 murders 
per 100,000 in New Orleans before Katrina. I think our last 
hearing said there were 90 murders. So there are different 
rates of crime around the county depending on what is being 
prosecuted and which crimes are actually being looked at.
    But I am so intrigued. When I was looking at your study and 
some of the results because this is my third year here in 
Congress, and the whole time here, I have heard now Speaker 
Pelosi and other leaders in the Congress talk about repeatedly 
Republican culture of corruption, Republican culture of 
corruption, Republican culture of corruption, and I had no idea 
there were more Democrats corrupt than there were Republicans, 
according to the prosecutions that were going on. So that was 
quite enlightening.
    Mr. Shields. I suspect that is because she was talking 
about her colleagues in the House and the colleagues in the 
Senate.
    Mr. Gohmert. Well, that is an interesting issue, too, 
because if you read the 80-page affidavit getting a search 
warrant to go into William Jefferson's office, and if you took 
the things in there that were sworn to be true as true, then I 
do not know why he was not prosecuted prior to the 2006 
election. It looks like it was a lay-down case if they could 
prove the things they swore were true in that affidavit.
    Yet the prosecution, as I understand it, demanded that a 
month before the election, he enter the plea if there were 
going to be any agreement. Otherwise, the agreement was off, 
which sure looks like politics, kind of like when Caspar 
Weinberger was indicted in June before the election in 1992 
which had an effect on the election, just like Bob Ney's 
situation did, too. So I see why it was----
    Mr. Shields. Mr. Gohmert----
    Mr. Gohmert [continuing]. Enlightening to know that there 
are more Democrats in trouble than there are Republicans, and I 
am pleased to know that I will be able to use your study 
helpfully----
    Mr. Shields. There are 17 percent in the sample. I would 
say that sometimes----
    Mr. Gohmert. Oh, so you are saying that that is----
    Mr. Shields. No, it is not.
    Mr. Gohmert [continuing]. Not a big deal?
    Mr. Shields. The issue you raise of timing of when the 
investigations occur is very important no matter whether it is 
a Republican or whether it is a Democrat.
    Mr. Gohmert. Sure it is.
    Mr. Shields. I am not here to defend one or the other. I do 
not like either one of them when they occur, and there is no 
doubt, I think, that this Justice Department also investigated 
some liberal Republicans that did not quite pass their litmus 
test, and I think that is probably reflected in the data, too.
    Mr. Scott. The gentleman's time has expired.
    Mr. Gohmert. I would yield back, but I do not have anything 
to yield.
    Mr. Scott. The gentleman from Georgia, Mr. Johnson, for 4 
minutes?
    Mr. Johnson. Thank you, Mr. Chairman.
    Perhaps the most significant statement about the dangers of 
political interference with prosecutorial judgments was made by 
then Attorney General and later Supreme Court Justice Robert H. 
Jackson who stated that, ``With the law books filled with a 
great assortment of crimes, a prosecutor stands a fair chance 
of finding at least a technical violation of some act on the 
part of almost anyone.
    ``In such a case, it is not a question of discovering the 
commission of a crime and then looking for the man who has 
committed it. It is a question of picking the man and then 
searching the law books or putting the investigators to work to 
pin some offense on him.
    ``It is in this realm in which the prosecutor picks someone 
whom he dislikes or desires to embarrass or selects some group 
or unpopular person and then looks for an offense that the 
greatest danger of abuse of prosecuting power lies.''
    And having said that, I would like to point out that along 
with concerns about Governor Siegelman and George Wilson being 
investigated because of pressure from the White House and from 
Karl Rove, there are concerns about the prosecution of Georgia 
State Senator Charles Walker.
    Senator Walker has a case that is on appeal. His lawyers, 
Dershowitz, Eiger & Adelson, in an October 22, 2007, letter, 
which appears in our packet, have asked the Committee to take a 
look at this case, and I just want to talk about the case.
    Senator Walker was one of the Georgia's most prominent 
Black politicians, a former state senator who had served in a 
legislature for 20 years. He made history in 1996 by being 
elected as senate majority leader in Georgia, making him the 
first African-American to become a senate leader in the 
country. His efforts in changing the state flag and beating the 
current governor for the position of senate majority leader has 
led many to believe that those events led to his downfall.
    During the current governor's campaign for governor--and he 
switched from the Democratic Party to the Republican Party--the 
current governor vowed to create an inspector general's office 
to investigate corruption and cronyism. To drive the point 
home, he not only traveled to Senator Walker's hometown of 
Augusta to introduce this initiative, he held a press 
conference in front of one of Senator Walker's businesses.
    Concurrently, the Georgia Republican leadership openly 
pressed the U.S. attorney to go after prominent Democrats, a 
fact that was confirmed through a subsequent investigation by 
the Justice Department. The current governor won the election.
    Walker was defeated in his bid for re-election, and it was 
later revealed that the U.S. attorney, Richard Thompson, was 
carrying out a political agenda with respect to some of his 
investigations on Walker and others. The Office of Professional 
Responsibility investigation within the Department of Justice 
found that Thompson was guilty of a number of politically 
motivated ethical lapses, including his duty to refrain from 
making public comments on ongoing investigations, his duty to 
refrain from participating in a matter that directly affected 
the interest of a personal friend, that is, the governor, and 
political ally and, three, his duty to refrain from taking 
action that would interfere with or affect an election.
    The investigation concluded that U.S. Attorney Thompson 
abused his authority and violated the public trust for the 
purposes of benefiting a personal and political ally. Thompson 
later resigned his office as U.S. attorney in disgrace.
    The investigation of the former officials were dropped, but 
the investigation of Senator Walker continued. Thompson's 
successor, Lisa Godby Wood, continued the investigation which 
resulted in an indictment filed against Walker on 142 counts of 
mail fraud, tax fraud and conspiracy, including numerous counts 
related to his service as a member of the Georgia Assembly.
    Several questions with respect to Senator Walker's trial 
had been raised from the integrity of the judge presiding to 
the selection of the jury. The judge, U.S. District Court Judge 
Dudley Bowen, whose nomination Senator Walker had opposed due 
to allegations that the judge was a member of private clubs 
which excluded Blacks, had close ties to the Augusta newspaper 
which was the principal competitor of Senator Walker's 
newspaper business, and the jury pool was expanded from the 
largely minority district of Augusta, Georgia, to the outlying 
areas outlining the city which is predominantly White which 
resulted in an expanded jury pool.
    This issue has ignited a lot of attention. Senator Walker's 
case is on appeal.
    And I will yield back the remainder of my time.
    Thank you.
    Mr. Scott. Thank you.
    The gentleman from California, Mr. Lungren, who is a former 
attorney general?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    And I thank the witnesses for appearing.
    The quote from Justice Jackson was, in fact, an important 
quote for all of us to consider, particularly the part where he 
says, ``It is in this realm where the prosecutor picks some 
person whom he dislikes or desires to embarrass or selects some 
group or unpopular person and then looks for an offense that 
the greatest danger of abuse of prosecuting power lies.
    ``It is here that law enforcement becomes personal, and the 
real crime becomes that of being unpopular with the predominant 
or governing group being attached to the wrong political views 
or being personally obnoxious to or in the way of the 
prosecutor himself.''
    And I do think that is an admonition against prosecutors. I 
would also think it is an admonition against Members of 
Congress in the way we conduct ourselves from time to time, 
that it is a tremendous temptation to try and find some 
particular item that we can to discredit someone.
    Having said that, Mr. Attorney General Thornburgh, I just 
want to say that I have great respect for you. I can recall 
when you were Attorney General and you had a meeting with 
Members of my side of the aisle, including a number of Members 
of this panel, some 20 years ago at which time a Member of this 
Committee was under investigation by your department--and I 
think you came about that close to reading him his Miranda 
rights during the meeting we had--and the only reason I mention 
that is I understand the difficulty when we have law 
enforcement with a discretion that is given to them through the 
Constitution and the proper appointment by the President, in 
your instance, and the political interplay that takes place 
with respect to public policy issues.
    I take very seriously claims of selective prosecution, but 
I also recall being, as attorney general of California, accused 
of selective prosecution whether you brought a case or you did 
not bring a case whenever there was some political element 
involved, and I understand how serious and difficult it is for 
you to make such claims in this case, although there are a 
series of questions that were asked you, and I wish I could get 
into them, but I do not have enough time.
    I would like to direct some questions to Mr. Jones.
    On the record, I will just say Don Siegelman's a friend of 
mine. He served as Attorney General when I was attorney 
general. I got to know him and his wife and his family, and 
while I would oppose selective prosecution of any individual, I 
would particularly take offense on someone I know and someone I 
served with and, during the time I served with him, found to be 
a credible and responsible person.
    So the allegations that are alleged here are very serious, 
in my estimation, and so I just want to get a feel from you 
about the prosecutor in the case, the person who actually 
prosecuted the case and the acting U.S. attorney.
    When I received a call from Governor Siegelman's wife on 
this, I started to make a little bit of an inquiry myself, and 
one of the things I received in response to my inquiry was the 
statement from Louis Franklin on this matter in which he said, 
``I can, however, state with absolutely certainty that the 
entire story is misleading because Karl Rove had no role 
whatsoever in bringing about the investigation or prosecution 
of former Governor Don Siegelman. It is intellectually 
dishonest to even suggest that Mr. Rove influenced or had any 
input into the decision to investigate or prosecute Don 
Siegelman. That decision was made by me, Louis F. Franklin, 
Sr., as the acting U.S. attorney in the case in conjunction 
with the Department of Justice's public integrity section and 
the Alabama attorney general's office.''
    Now that is a pretty strong statement on his part. I was 
thinking of cases I had in which it turned out when we 
prosecuted someone, it was someone of a high profile of the 
other party, who there was a contention might be a rival of 
mine in a future race, and, frankly, all I could say in 
response was, ``I did not do it for that purpose. I took into 
account prosecutors.''
    I remember having a number of meetings with my career 
prosecutors about the quantum of evidence that was there, 
making them go over and over with me that quantum of evidence 
to convince me that this was a solid case, and so I guess I am 
trying to ask what is it that would have you convince me that 
this statement is erroneous and that Mr. Franklin and the 
prosecutor in the specific case brought a case in which they 
did not believe, did it only for political purposes?
    And the reason I ask that is this--and, again, I come out 
of the construct of my own experience--in California, the 
attorney general has supervisory responsibility for all D.A.'s 
offices. When I was attorney general, I could take over any 
D.A.'s office. I could not intervene to stop a prosecution, 
however. I could only intervene to take over a prosecution or 
start one that the D.A. had refused to do, and the thinking was 
that if a prosecution that should have been brought was not 
brought, there is no recourse for the public.
    But if there is a prosecution that is questionable and 
ought not to be brought, the prosecutions are with, in the 
first case, the grand jury, the judge, the appellate court and 
finally the Supreme Court, and that was sort of the framework 
of California law, and I thought it was a fairly reasonable 
approach to look at things. So, when I hear a serious 
allegation from someone I consider to be a friend that there 
has been selective prosecution, and I look at the case, I would 
just ask you to help me on that, please.
    Mr. Jones. It is a very fair question. Let me make sure you 
understand. I have never ever said that Louis Franklin or Steve 
Feaga were politically motivated. In fact, I do believe that by 
the time this indictment was rendered, they were invested in 
the case and they believed it. I publically said that before.
    I do not believe, however, though, that Mr. Franklin can 
make any statement anymore than I can about whether or not Karl 
Rove or anyone else at the White House discussed with the 
public integrity section whether or not to go forward against 
Don Siegelman.
    All I know is that Mr. Feaga and Mr. Franklin did not think 
a lot of this case, based on my experience and what they said, 
in the summer of 2004. We were told by Mr. Feaga that he was 
asked to go back by the public integrity section and, in fact, 
that that is what happened.
    So, unlike maybe looking at U.S. attorneys, I have never 
thought necessarily that Mr. Feaga or Mr. Franklin were 
motivated by any political motive there.
    Mr. Lungren. That goes to the question. When I was dealing 
with some very difficult cases, I told my prosecutors and 
investigators to go back and look at it, in one case when there 
did not appear to be sufficient evidence, but we had 
accusations and in another case where I did not think they had 
sufficient evidence, and that is the normal course of a 
supervisor, and that is why I am trying to find what is 
different here, if you could tell me so I could figure out what 
is different.
    Mr. Jones. Congressman, my reaction was in part the same at 
the time. But when you look at the entire timeline and you look 
at the fact that the indictment against Governor Siegelman had 
been dismissed, and then when you look at what actually 
happened in 2005, which was not just simply a review.
    Remember this case had been going on for 2, 2\1/2\ years, 
and the allegations were there. This was more than a review. 
This was going back and starting to look at areas that had 
never been looked at before and that, in fact, so many 
businessmen and others that were subpoenaed had to spend time 
and money with allegations or at least looking at areas that 
never came to fruition. It was a whole new investigation, and 
that is all I can say.
    But I do appreciate your comments because, at the time, my 
reaction was one of the same. It would not be unusual. I was 
concerned because of the dismissal, though, previously that 
they all of a sudden come back.
    Mr. Scott. The gentleman's time has expired.
    The gentleman from Massachusetts is recognized for his one 
remaining minute?
    Mr. Delahunt. I think it is important that we understand 
that this is an important hearing because it does focus on the 
integrity of the decision-making process of the prosecutor.
    I would like to put aside partisan considerations, 
irrelevant of whether it is a Democrat or a Republican, but I 
think we have to know and have confidence if we are to reassure 
the American people that the mechanisms, the checks and 
balances that ensure the integrity of that decision-making 
process are working, that they are effective.
    The Ranking Member mentioned the Nifong matter. The state 
took action there. He said we ought to be looking at the Duke 
Lacrosse case. Well, they did. They did that.
    I think the issue is: Is OPR properly functioning? I do not 
know the answer to that question.
    I also want to comment on Attorney General Thornburgh's 
observation about the criminalization of ordinances and county 
codes, et cetera. Do we really want to do this? Is this what we 
intended when we passed these substantive laws? This is 
something that this Committee, Republican and Democrat, has to 
take a hard look at.
    Mr. Scott. Thank you.
    The gentlelady from California is recognized for 5 minutes?
    Ms. Waters. Mr. Chairman, thank you.
    Mr. Scott. Wait, wait. Excuse me. Ms. Lofgren. I am sorry.
    Ms. Lofgren. Mr. Chairman, thank you for recognizing me.
    First, I have a letter that has been delivered to us by 
Timothy Hawks, the lawyer for Ms. Thompson who was convicted 
and whose conviction was overturned and, in response, I would 
ask unanimous consent to put that in the record.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Lofgren. And I just want to raise that issue because 
when we started out on this inquiry, I will confess, I thought 
we were going to find some ineptness and some bungling. I never 
really believed that we would uncover something that looked 
very seriously wrong and people who, because they were going to 
risk their job, brought prosecutions that should not have been 
brought.
    And then, of course, that brings us to the question: What 
about the people who did not lose their jobs? What did they do?
    And the case of Ms. Thompson is a pretty stark one. I mean, 
as this letter indicates, the Republican Party sent millions of 
dollars advertising Ms. Thompson as a symbol of corruption of 
the incumbent Democratic regime, but when her case was heard on 
appeal, the appellate court, the Seventh Circuit, described the 
government's evidence as, ``beyond thin,'' and described the 
legal theories of the prosecution as ``preposterous,'' and the 
very day of oral arguments ordered that she be released from 
custody.
    So my question, Mr. Attorney General and Mr. Jones, are you 
familiar with another case where the appellate court on the day 
of the oral arguments orders the appellant released with this 
kind of description of the prosecution?
    Mr. Thornburgh. Pretty unusual, I must say.
    Mr. Jones. I think it would be extremely unusual.
    Ms. Lofgren. Well, it just seems to me it looks not right, 
and I would hope--first, let me say, Mr. Attorney General, that 
politically we are not aligned, but I do respect your integrity 
and you are what we always thought of on my side of the aisle 
as an honest conservative and that you would stay here today 
and speak as you have in an effort to really, I think, save the 
country from a souring and a corruption of the prosecution 
process is really in keeping with your reputation as an honest 
conservative, and I appreciate it. It cannot be easy to do. I 
appreciate that you have done this.
    And I hope that all of us in the Congress will get a grip. 
It is time to stop defending the indefensible and time to clean 
up something that appears to have seriously damaged the 
integrity of the judicial system, which is core to our free 
society.
    And with that, Mr. Chairman, I would like to yield the 
balance of my time to the gentleman from Alabama, Mr. Artur 
Davis.
    Mr. Davis. Thank you, Ms. Lofgren.
    Let me turn to another aspect of this case that has raised 
questions and ask unanimous consent to introduce a Time 
magazine article, October 4 of this year, called Selective 
Justice in Alabama.
    Lanny Young, Mr. Jones, you will recall, in addition to 
Nick Bailey, was the government's other principal witness 
against Don Siegelman. Mr. Young indicated that he had bribed 
Siegelman and a number of Siegelman staffers for a number of 
years.
    According to the Time magazine article, which relies on FBI 
302s, documents turned over to defense lawyers, in May of 2002, 
Mr. Young met with the U.S. attorney's office, met with 
individuals from the Attorney General's office and made a 
series of allegations against Republican officeholders, one of 
them, one of the senators from my state, another one, the 
former Attorney General who is now a Federal judge.
    He indicated that he had laundered campaign contributions 
for them illegally. He indicated that he had made contributions 
in violation of Federal campaign finance laws. Quote from the 
story, ``Several people involved in the Siegelman case who 
spoke to Time say prosecutors were so focused on going after 
Siegelman that they showed almost no interest in tracking down 
what Young said about apparently illegal contributions to 
Sessions, Pryor, other well-known figures in the Alabama GOP, 
and even a few of the safe Democrats.''
    In other words, no matter what Lanny Young said, the only 
thing that the government wanted to hear about was that which 
related to Don Siegelman. Quote from the story, ``It just did 
not seem like that was ever going to happen,'' that being an 
investigation of the others, ``said an individual present 
during key parts of the investigation. Sessions and Pryor were 
on the home team.''
    One of two things happens here, it seems to me. Either the 
government did not even look into the allegations against these 
other individuals, which raises an obvious question of 
selectiveness, or more likely this, they concluded very quickly 
that Lanny Young was a liar who could not be trusted, and that 
what he said about our senator and our Attorney General had no 
corroboration, no proof.
    I will direct this question to Mr. Thornburgh and Mr. Jones 
as a former Attorney General and a former U.S. attorney. Does 
the government not have ethical obligations to not put someone 
on the stand who appears to be a noncredible witness?
    And, Mr. Thornburgh, would you be troubled if the 
government brought a case based on someone who had made 
allegations that appeared to conclusively be disproved?
    Mr. Scott. Can I ask the witnesses to respond briefly? The 
gentleman's time has expired.
    Mr. Thornburgh. Yes.
    Mr. Jones. Yes.
    Mr. Scott. The gentleman from Tennessee?
    Mr. Cohen. Thank you, Mr. Chairman.
    I am concerned about these cases that have been raised, 
pretty much so, but I would like to turn our discussion to a 
case in Mississippi that Chairman Scott mentioned in his 
opening statement, a case that raises serious questions of 
selective prosecutions.
    The Committee has received letters from Mississippi Supreme 
Court Justice Oliver Diaz, as well as Mississippi trial lawyer 
Paul Minor and Mississippi attorney and former judge John 
Whitfield, detailing the facts of their prosecutions in 
Mississippi. They all believe these have been politically 
motivated. And it is mentioned in Justice Diaz's letter that 
John Grisham, a distinguished author, former member of the 
Mississippi House of Representatives, has written a lot about 
Mississippi in fiction. It looks like something that is even 
more scary. It looks like a tale of intrigue, of political 
incest in the highest orders and places of the Mississippi 
Justice Department, and attempts to get even with folks on the 
other side of the aisle.
    I would like first to ask unanimous consent that the three 
letters that we have received from the justice, the attorney 
and the former judge be included in the record.
    Mr. Scott. Without objection.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Cohen. Thank you, sir.
    In what Justice Diaz, who is the sitting member of the 
Mississippi Supreme Court, describes, ``as a scheme hatched by 
politically corrupt employees of the United States Department 
of Justice and elsewhere,'' in 2003, the United States attorney 
for the Southern District of Mississippi, Mr. Lampton, 
prosecuted Justice Diaz, Mr. Minor, Mr. Whitfield, another 
judge and Justice Diaz's ex-wife based on allegations that Mr. 
Minor attempted to gain an unfair advantage from the judges by 
guaranteeing loans in the 2000 campaign when Justice Diaz was 
running for judge, a man who was a Republican but had 
Democratic friends over the years, against a man named Starrett 
who was a good 100 percent silk stocking Republican with all 
the things that Republicans do to be in good graces, a loyal 
Bushie, so to speak.
    In that particular election in 2000, Mr. Minor made 
guaranteed loans to the candidate running for justice, Mr. 
Diaz, at approximately $65,000. That was legal in Mississippi. 
It is perfectly legal under Mississippi law. Another gentleman, 
Mr. Richard Dickie Scruggs, made loans of $80,000 to Justice 
Diaz, the same election. There are differences. And you start 
to see the branching of justice and the definite questions 
which this Committee, Mr. Chairman, needs to look into.
    After that 2000 election, you have the same set of facts. 
Two legal guaranteed loans made to this Supreme Court justice 
candidate, one by Mr. Diaz and one by Mr. Minor. Yet in 2003, 
Justice Diaz, Mr. Minor, Mr. Whitfield, then a judge, another 
judge and Mr. Diaz's wife are all indicted. They are indicted 
in July of 2003, even though Justice Diaz had recused himself 
from every case he had ever had dealing with Mr. Minor, never 
voted on a thing, but he is indicted.
    He is indicted because he guaranteed these loans to this 
man running for the Supreme Court. Mr. Scruggs guaranteed a 
loan at a higher amount of money, repaid those loans himself 
rather than raising money as Mr. Minor did. Accordingly, Mr. 
Scruggs is more ingratiated, so to speak, with the justice than 
Mr. Minor would have been, but Mr. Scruggs is not indicted.
    Well, what is the difference in the two situations 
according to these letters? Well, if you look at them, Mr. 
Minor was one of the largest donors to the Democrats in that 
state, one of the 10 top donors to John Edwards' Presidential 
campaign and was known for his support as a trial lawyer in 
working for the people's interest and against the tobacco 
interests.
    On the other hand, Mr. Scruggs, also a trial lawyer, also a 
trial lawyer, had after that election given half a million 
dollars to Republican causes, a quarter of a million dollars to 
the Bush-Cheney campaign, and, coincidentally or not, is the 
brother-in-law of Senator Trent Lott of Mississippi. Well, Mr. 
Scruggs not indicted and apparently not even investigated.
    It is this suggestion of politically motivated selective 
prosecution that raises the question of whether the prosecution 
of Justice Diaz and Mr. Minor fits in the larger potential 
pattern of selective prosecution that we are discussing today.
    Justice Diaz was not only indicted, but once the jury found 
him not guilty, acquitted him of charges. Three days later, he 
is re-indicted. And when you read through these letters and you 
see a pattern of relationships and conflicts of interest that 
are not taken into consideration by the court on the part of 
Mr. Lampton who twice ran for Congress as a Republican, was 
constantly the opposition of Mr. Minor--he was his foil, his 
antithesis--and Mr. Minor had sued a Fortune 500 company which 
Mr. Lampton's family is involved in--Mr. Lampton does not 
recuse himself. He brings a prosecution looking apparently at 
the man first and the facts later and prosecutes and conflict 
of interest did not discuss.
    What I would like to ask in this situation is----
    Mr. Forbes. Mr. Chairman, the time has long expired.
    Mr. Cohen. I would just like to ask the Chairman if he 
could look into and include in this particular hearing 
discussions of whether selective prosecution, politically 
motivated, happened in Mississippi with these Democratic 
officeholders and include the Mississippi case in the document 
requests that are made and ask the Committee to make this case 
a full part of its inquiry. If you look at it, it does an 
injustice to the State of Mississippi, to Lady Justice and to 
what we know as fair play in America.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you. The gentleman's time has expired.
    We have a Committee hearing in this room at 1. That will 
begin at the conclusion of this hearing.
    Next is the gentlelady from California, Ms. Waters?
    Ms. Waters. Thank you very much, Mr. Chairman.
    I would like to first just congratulate you for this 
hearing. This is extremely important, and I would think that 
all the Members of this Committee from both sides of the aisle 
would be supportive of this hearing and work that should be 
done to ensure that the citizens of this country can depend on 
the criminal justice system and the Justice Department to be 
impartial, to be fair and not single out or political profile 
elected officials and basically politicize the process. So I am 
very thankful to you.
    I would just like to turn to Mr. Shields.
    Professor Shields, earlier, you were asked whether or not 
you were an attorney, and you were also asked if you had a 
degree in statistics. I would like to debunk the notion that 
being an attorney would somehow make you a better researcher or 
would make you a better professor----
    Mr. Shields. Thank you.
    Ms. Waters [continuing]. Or would somehow give you more 
credibility than the professor emeritus that you are, the 
Department of Communications, University of Missouri, St. 
Louis, and lecturer, Department of Communications Studies at 
the University of Missouri, Kansas City. You are, indeed, 
professor emeritus, Department of Communication, University of 
Missouri, St. Louis. Is that true?
    Mr. Shields. That is true.
    Ms. Waters. And you are published?
    Mr. Shields. Yes.
    Ms. Waters. Have you ever been accused of having sloppy 
research or having published something that proved to be untrue 
or statistically incorrect?
    Mr. Shields. Not to my knowledge.
    Ms. Waters. Is it true that when you started out the work 
that led you to where you have come in looking at the political 
profiling that that is not where you started out. You were 
looking for something else. Is that correct?
    Mr. Shields. That is correct.
    Ms. Waters. Would you tell the Committee what it was you 
were researching when you stumbled upon this political 
profiling?
    Mr. Shields. Yes. As I said in my opening statement, I was 
studying rhetorical visions and had noted that with the end of 
Communism, why there was not a dominant conservative theme, 
piece of rhetoric around, and then John Ashcroft, who happens 
to be from my state, Missouri, and was once our attorney 
general, was once our governor, was once our United States 
senator before becoming Attorney General for the Nation, began 
a public corruption initiative, and so I was studying to see if 
people were caught up in this new vision, and he was running 
around not only the country giving speeches on public 
corruption, but he was running around the world giving speeches 
on public corruption.
    Ms. Waters. And----
    Mr. Shields. So I was studying this.
    Ms. Waters. As you describe this, this was a kind of new 
approach to preemptive strike on corruption----
    Mr. Shields. Yes, that is correct.
    Ms. Waters [continuing]. That Mr. Ashcroft was talking 
about?
    Mr. Shields. It was a move away from investigating and 
prosecuting actual crimes to kind of ferreting them out before 
they happened.
    Ms. Waters. And in your research, you had discovered that 
there had been 375 investigations and-or indictments of 
candidates and elected officials brought by U.S. attorneys 
since 2001.
    Mr. Shields. Yes.
    Ms. Waters. Would you reiterate again for us and would you 
give us the percentages of indictments relative to Democrats 
and Republicans?
    Mr. Shields. Yes. As I also said in my opening remarks, the 
written statement that I provided for the public record for 
here now has 820 investigations, not just 375. So I will just 
give you the new numbers. And the new numbers are 5.6 to 1 
Democrats investigated versus each Republican. So, for every 
Republican in this room, if you were investigated, there would 
be 5.6 Democrats that were investigated along with you by this 
Justice Department.
    Ms. Waters. You did much of your research from news 
reports, and you mentioned that you were Googling and----
    Mr. Shields. Yes.
    Ms. Waters [continuing]. Going on the Internet. Did you 
find it odd that so much was being written about what appeared 
to be the political profiling of elected officials?
    Mr. Shields. Well, what is interesting is by looking at 
investigations at the local level, what I was really looking at 
was little newspaper stories from all over the country about 
little local candidates and those stories did not get 
publicized in other newspapers. So, if you were not reading the 
Birmingham News, you did not know what was happening in some 
community around it in Alabama, but by doing the Google search, 
you could find those articles and you would know. So it was the 
collective unity of all of those small newspapers across the 
country that enabled me to come up with 120 cases through 
September 16, which is when Attorney General Gonzales stepped 
down.
    Ms. Waters. Aside from questions that have basically, I 
think, attempted to discredit you and your work, do you find it 
odd that the Justice Department has refused to give information 
to this Committee or to you or anybody else who would request 
it that would further help to illuminate exactly what has been 
going on and if, in fact, they have not been profiling, they 
could clear up the questions that are being raised or, if they 
are, we would have more information by which to do our 
oversight and do the corrections? Do you find that odd?
    Mr. Shields. Yes, I do find that odd. There is no doubt 
that the Justice Department has this data and, if they would 
release it, we would know the answers to just how accurate my 
study is tomorrow morning.
    I can tell you that in New Jersey, the U.S. attorney for 
New Jersey is very proud of the fact that he goes after elected 
officials, and he announces periodically an update on the 
number of actual elected officials that he has investigated and 
prosecuted, and his last statement was on September the 24th, 
and he said he had 124. Well, I have 116 of those in my 
database, and so it would seem to me that I am within about 10 
percent of having a census of the investigations that are out 
there.
    Ms. Waters. Thank you.
    Mr. Scott. The gentlelady's time has expired.
    The gentlelady from Ohio is recognized. She has by 
unanimous consent yielded her time to the gentleman from 
Alabama.
    Mr. Davis. Thank you, Mr. Chairman.
    Let me thank all of my colleagues for being so generous in 
yielding time for me to bring out as many facts as I could 
regarding this case. This is not a jury, but I do feel the 
public is owed some conclusions. I am about to give one 
Member's conclusions.
    Ms. Siegelman and her two children are here today, and I 
will tell all three of you very candidly that 6 months ago, if 
you had asked me if you could rely that the system that 
prosecuted your father and your husband had integrity, 6 months 
ago, I would have told you that I believe in the system. I 
cannot sit here today and say to you that I have confidence 
that the system worked in a fair and just manner in this case. 
I will tell you just some of the reasons.
    At every turn, we see politics. Government was very eager 
to prosecute Don Siegelman in 2002, sat down with a man named 
Lanny Young, listened to what he had to say. The only time they 
believed him is when he talked about Don Siegelman. That 
suggests selectiveness.
    We know there has been a lot of dispute around the 
credibility of this lady, Jill Simpson. None of us has a truth 
detector. I do know this much. She made her statements under 
oath in May, it took until this morning for countering 
affidavits to make their way to this Committee, and what do all 
the countering affidavits say? No phone call on November 18, 
2002. Did not happen. Pull the phone records. Jill Simpson 
called Rob Riley's office on November 18, 2002. Do not have a 
truth serum, but I know on that critical point the countering 
affidavits are disproven and she is bolstered.
    Look at Doug Jones's testimony. He describes a U.S. 
attorney's office that was all set to walk away from this case, 
had doubts about its own witnesses, ready to close the books. 
All of a sudden, Washington comes in. By the way, Washington 
comes in in the very timeframe that Simpson said she was told 
they came in, the very timeframe she says she was told that 
Rove intervened, and all of a sudden, the Department of Justice 
begins to run the show.
    What do we know about this Department of Justice? We know 
that it purged U.S. attorneys for being insufficiently loyal 
Bushies, and that is not my phrase. That is the phrase of one 
of the people who worked in the Department of Justice. We know 
that this Department of Justice had a pattern of 
disproportionate prosecutions so steep and so mountainous that 
the odds are 10,000 to one against it. We know that.
    Every time you look at the twists and turns in this case, 
you see the presence of party politics. So I have to conclude 
this much.
    Before that, let me make this other one observation. Mr. 
Lungren, I am with you. This is a mystery to me, too, because I 
know a lot of these individuals. I like the prosecutors in the 
Montgomery office. I served with them, know them to be good 
men. I wonder how in the world they got pulled into bringing a 
case so lacking in merit that they wanted to walk away from it.
    Maybe this is the best answer. Maybe we ought to stop 
asking who is lying and who is telling the truth because we 
cannot sort that and focus on this one question: Could it be 
that there was such a culture that the Gonzales Justice 
Department created that good prosecutors were somehow pulled 
into it and that they believed the only way to maybe earn spurs 
in this department is to go out and turn the U.S. attorney's 
office into a political tool? Maybe they came to believe the 
only way to advance is to use this office to get political 
enemies. Maybe before they even knew it, they started to think 
the U.S. attorney's office was just another thing to be used, 
another piece of opposition research to be put on the table.
    I would like to think that was not the case, but that is 
the culture that I see tainted by all of this evidence. So I 
think, ladies and gentleman, Members of the Committee, politics 
influenced this case. That is the irresistible conclusion based 
on the facts--Washington politics, Karl Rove politics--and 
finally, the politics that says if I cannot beat your ideas, if 
I cannot have confidence that I can beat you at the ballot box, 
maybe I can do it the old-fashioned way and just destroy you 
and destroy your reputation.
    Ladies and gentleman, if that is what U.S. attorneys' 
offices and the Department of Justice becomes, it eats away at 
the integrity of this whole system. People who have committed 
crimes ought to go to jail, but, Mr. Jones, you said it better 
than anyone could say it today. Diligent prosecutors unaffected 
by politics investigate crimes, not people in search of a 
theory hoping that they can put them in the dock.
    Thank you.
    Mr. Scott. Thank you. The gentleman's time has expired.
    The gentlelady from Texas, Ms. Jackson Lee?
    Ms. Jackson Lee. Mr. Chairman, I heard a comment as I was 
coming into the room that this has been devastating. I want to 
thank the distinguished panel for their presence here, and 
thank you for your indulgence of this timeframe. I thank the 
Chairmen of the joint Committees for their leadership on this 
issue.
    I just want to quickly make a point on the record, and then 
I am going to go right at some pointed questions. My colleagues 
have been certainly direct.
    I hear the constant refrain of Karl Rove, and I would say 
to my Chairpersons that it seems that he should be in this 
room. Karl Rove has had his name engaged repeatedly in the 
whole episode and debacle dealing with the fired U.S. 
attorneys. It seems that those U.S. attorneys were from swing 
states, the very places that a political Karl Rove would want 
to win. Karl Rove has a long history with Alabama, and he seems 
to have been able to engineer the GOP takeover of Alabama in 
the 1990's. We know that our President has been to Alabama.
    Mr. Scott. Will the gentlelady suspend for just a minute?
    I understand that Mr. Jones has a flight that he might be 
able to make if he leaves right this minute.
    Mr. Jones. It is close.
    Mr. Scott. Are there any questions to Mr. Jones? If not, 
you are excused.
    Mr. Jones. Thank you, Mr. Chairman.
    Ms. Jackson Lee. Thank you, Mr. Jones.
    As well, we know that Governor Siegelman was someone who 
changed the landscape, if you will, of politics in Alabama.
    So, Mr. Jones, as you leave, let me thank you and just 
simply say: Do you think they were out to get Mr. Siegelman, 
and I will let you go at that.
    Mr. Jones. I do not think there is any question that there 
were a lot of people out to get him. Yes, ma'am.
    Ms. Jackson Lee. No question?
    Mr. Jones. No question.
    Ms. Jackson Lee. Thank you for that answer.
    Let me pose my questions quickly to the two gentlemen. I 
would say to you, Professor Shields, in looking at the numbers, 
do you think that it might have been a thought that we could 
command that they were out to get Governor Siegelman?
    Mr. Shields. Well, I only know about the dismissal and then 
the second re-indictment.
    Ms. Jackson Lee. Yes.
    Mr. Shields. I go by the fact that there was a dismissal 
and then there was a sudden re-indictment.
    Ms. Jackson Lee. And so that looks like a turn of events 
out of the ordinary?
    Mr. Shields. Yes.
    Ms. Jackson Lee. Let me for the record indicate that one of 
my colleagues mentioned Mr. Jefferson. Let me make it very 
clear that I think your numbers encapture his circumstances, 
but I think it is important for our colleagues to note on the 
record Mr. Jefferson has been protesting and presenting his 
innocence and it is one of the longest cases we have ever seen 
in comparing it other cases. It was the personal choice of any 
Member of Congress who decided to plea. It was their personal 
choice. To date, Mr. Jefferson has not, and he has continued to 
insist on his innocence, and I think that speaks volumes.
    I do want to go to this line of questioning about inaction. 
We have talked about selective prosecution, and, General 
Thornburgh, I want you to know that we have respected your 
legacy in civil rights. Those of us who have studied generals 
and understand we have heard your voice being very strong.
    So I am going to pose you a question and this is on 
inertia, but I do want to hear a little bit about Dr. Wecht, a 
75-year-old, because that speaks to discretion and judgment and 
why someone who seemed to have the association with maybe more 
liberal viewpoints might have been subjected to selective 
prosecution.
    I want to bring up the gentleman in Chicago that was a 
Democratic fundraiser, Professor Shields, if you happen to know 
about that individual who was asked to roll over and did not 
roll over, but, more importantly, was told if you roll over, 
you will go free.
    But really I want you to get at this question of lack of 
enforcement. In the Western District of Louisiana in the Jena 6 
case, there was a sitting U.S. attorney who kept his job who 
was an appointee who did not see fit to investigate or pursue 
the idea of hanging nooses, the idea of disparate treatment--it 
was on the state level--but the idea of civil rights 
prosecution, meaning going forward to suggest that the abuse of 
a student, taking a gun out, beating up a Black student, even 
though we do not condone the actions--we are not condoning the 
actions of those youngsters--but if you would speak to the two 
points I gave you and then this question of selective inertia 
where the U.S. attorney could have been effective but for 
politics possibly holding him back.
    General Thornburgh, you want to speak on your case and then 
if you would to the other points I have made.
    Mr. Thornburgh. As I told the Committee earlier, 
Representative Jackson Lee, I have a hard time figuring out why 
the U.S. attorney would go to such lengths to convert these 
trivial irregularities into Federal felony charges. When I look 
at it in the context of her having carried out no 
investigations or prosecutions against Republicans and bringing 
this case against a prominent Democrat and measure that against 
the backdrop of the allegations of nationwide actions of a 
similar ilk, I can only come to the conclusion that the 
prosecution was politically motivated.
    I was asked earlier whether I had any evidence of 
conversations between the White House or Federal officials. No, 
I do not, obviously, have those, but I look at this and I try 
my best to come up with some other explanation as to why these 
charges might have been brought, and I come up empty-handed.
    I must apologize for being unable to comment on the Jena 
case. I simply do not know, obviously, with any degree of 
certainty that I have about the case I am discussing where I 
represent the individual who is the subject, a target of this 
investigation the facts, and it would be, I think you would 
agree, irresponsible for me to offer an opinion on that in that 
context.
    Ms. Jackson Lee. Professor Shields, inertia in prosecution? 
Selective nonprosecution?
    Mr. Shields. Well, in regard to the cases that are not of 
elected officials or candidates, I did not study those. I can 
tell you that I have run across a number of investigations of 
fundraisers. Now which political party these fundraisers are 
of, I do not know, but I did not track them as a database.
    I think there is no doubt that the data speaks that 
something caused this irregularity, this disproportion between 
investigations of Democrats and investigations of Republicans. 
It was either policy driven, which I suspect--the data and the 
other circumstantial evidence that this has been brought up 
here today and in previous months by the Judiciary Committee 
suggests its policy driven. But even if it were a result of 
just independent U.S. attorneys acting, it is a bad thing. It 
is not good to investigate 5.6 Democrats to every one 
Republican. When the ratio should be 1.2 Democrats to one 
Republican.
    So, even if it is not policy driven, it is something that 
this Committee and the Congress needs to enact certain 
structural changes that will prohibit that from continuing.
    Ms. Jackson Lee. And the same thing with inaction?
    Mr. Shields. And the same thing. I mean, prosecutors have 
always had discretion not to bow out of a case, but there does 
not seem to be any harm in that. But there is harm if it is 
done selectively.
    Mr. Scott. The gentlelady's time has expired.
    The gentlelady from Wisconsin, Ms. Baldwin?
    Ms. Baldwin. Thank you, Mr. Chairman. I appreciate the fact 
that you are holding this hearing today, and I certainly 
appreciate the patient panel of witnesses for coming to speak 
with us today.
    I had actually intended to ask my question of Mr. Jones, 
but I will offer these witnesses an opportunity to respond.
    But I want to use my time to address the case that has been 
very, very controversial in my home state of Wisconsin, the 
prosecution of a state employee by the name of Georgia 
Thompson. Many, I think, are already familiar with the Georgia 
Thompson case.
    She was a procurement officer for the State of Wisconsin, a 
civil servant who was hired during the term of a Republican 
governor, and she was criminally prosecuted on charges that she 
awarded a contract to a firm owned by someone who had made 
campaign donations to our Democratic governor.
    The case raised a lot of question marks when the Seventh 
Circuit Appeals Court reversed her conviction last April 
calling the government's evidence ``beyond thin'' and 
describing the government's legal theories as essentially 
``preposterous,'' and in a very unusual move, the Seventh 
Circuit Court of Appeals issued an order the very day of oral 
arguments directing the government, the authorities to release 
Ms. Thompson immediately before close of business that day, at 
oral arguments.
    When it became clear that Ms. Thompson had not even known 
about the donations and the winning bidder had submitted the 
lowest bid, the question became even more urgent. Why was this 
woman prosecuted and sent to prison?
    Well, one possible answer is suggested in a letter 
submitted to the Committee by counsel for the state workers 
union who represent Ms. Thompson, and I would like to ask, Mr. 
Chairman, unanimous consent to enter that letter into the 
record.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Scott. Without objection, so ordered.
    Ms. Baldwin. Thank you, Mr. Chairman.
    I especially commend the letter to my colleagues because it 
really catalogs the awful personal toll that this prosecution 
on Ms. Thompson produced. She in the course of this prosecution 
to defend herself and her good name spent approximately 
$360,000, exhausting her entire life savings, in the course of 
the prosecution, lost her job and her home, facts, I think, 
that we should never lose sight of when we consider these cases 
and their consequences.
    As to why the case might have been brought, the letter also 
describes the prosecution as highly politicized. It further 
states, ``The context of the prosecution of Ms. Thompson was a 
dangerous mix of partisan electoral politics.''
    Following Ms. Thompson's release after 4 months in Federal 
prison, The New York Times editorialized that U.S. Attorney 
Biskupic had turned a flimsy case into a campaign issue that 
nearly helped Republicans win a pivotal governor's race.
    The letter goes on to question why the case was brought in 
the Milwaukee Federal court instead of Madison where Ms. 
Thompson lived, the contract was executed, where she worked, 
and questions the timing of the indictment and the trial 
alongside the timing of a heated electoral campaign.
    Quoting again from the letter, ``During that time, the 
Republican Party spent millions of dollars on advertising 
specifically portraying Ms. Thompson as a symbol of corruption 
of the incumbent Democratic regime. It is clear that the 
prosecution was politically useful to Republicans, but, at this 
point, of course, we do not know if that was a side effect or 
if the prosecution was, in fact, politically motivated.''
    Now U.S. Attorney Biskupic, who is respected in the State 
of Wisconsin, has strongly denied this, and I have not formed a 
judgment on that ultimate issue, and I have an open mind, but 
we do know a few things.
    First, we know that for a time, Mr. Biskupic's name was on 
the U.S. attorney's firing list, and he appears to have been 
removed from that list after the Thompson indictment was 
brought.
    Second, we know that Karl Rove was concerned about so-
called vote fraud enforcement in Mr. Biskupic's district, and 
other U.S. attorneys who were not aggressive enough on those 
cases to satisfy Republican interests do appear to have 
actually been fired.
    Finally, we know that the Seventh Circuit has told us that 
this was not just a weak case. It appears to have been simply 
an unreasonable one. It is one thing to have a conviction 
reversed. It is quite another thing altogether for an appeals 
court to reverse a conviction, to ridicule the prosecution and 
to order the government to release the defendant before the 
close of business that very day.
    So, on that note, I will give you two the question I was 
going to give to Mr. Jones. Are you aware of the frequency of 
criminal convictions, especially those reversed in that fashion 
and, if not, what would you reaction have been to something 
like that?
    Mr. Thornburgh. May I speak to that, Mr. Chairman?
    Mr. Scott. Yes, Mr. Thornburgh?
    Mr. Thornburgh. I ask to do so because the findings of the 
Seventh Circuit Court in the Thompson case relate directly to 
the grievance that I presented to this Committee today.
    In the opinion rendered by the Seventh Circuit, a 
distinguished Federal judge, Frank Easterbrook--I must make 
full disclosure, a former colleague of mine at the Department 
of Justice, but a respected Federal judge--expressed the 
growing misgivings that Federal courts have about overzealous 
applications of section 666 and 1346 of the Federal Code, the 
very sections that we have pointed out were abused in the Wecht 
prosecution.
    And knowing that this Committee is interested not only in 
hearing grievances, but in taking constructive action to 
prevent this from recurring, I would refer you to Judge 
Easterbrook's suggestion that Congress take another look at the 
wisdom of enacting ambulatory criminal prohibitions, which is a 
fancy way of saying prohibitions that are adjustable to the 
moment and can be fashioned in the manner that has been 
discussed today.
    I would ask on behalf of all those defendants whose cases 
have been discussed here today involving these open-ended kinds 
of opportunities that the Congress might be well-advised in its 
oversight hearings to look at these particular statutes and the 
opportunity for abuse that lies within having such vague and 
open-ended admonitions in the Federal Criminal Code.
    Thank you.
    Mr. Scott. Thank you.
    Mr. Shields?
    Ms. Jackson Lee. I have a unanimous consent, Mr. Chairman.
    Mr. Scott. For what?
    Ms. Jackson Lee. To put two names on the record that I did 
not mention in my remarks.
    Mr. Scott. The gentlelady will state the names.
    Ms. Jackson Lee. Yes, I would like to put on the record 
Democratic contributor Peter Palivos that I was mentioning in 
my remarks and also former Councilmember Ben Reyes from Houston 
who was subjected to prosecution under the hotel sting 
operation in Houston, Texas.
    I yield back.
    Mr. Scott. Without objection.
    I want to thank our witnesses for their testimony today. 
Members may have additional written questions which we will 
forward to you and ask that you answer as promptly as you can 
in order that they may be made part of the record.
    Without objection, the hearing record will remain open for 
1 week for the submission of additional materials, and without 
objection, the Committee stands adjourned.
    We will begin the next hearing as soon as we can get set 
up.
    [Whereupon, at 1:30 p.m., the Subcommittees were 
adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
